<html>
<title> - TESTING AND CERTIFICATION FOR VOTING EQUIPMENT: HOW CAN THE PROCESS BE IMPROVED?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                     TESTING AND CERTIFICATION FOR
                       VOTING EQUIPMENT: HOW CAN
                        THE PROCESS BE IMPROVED?

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2004

                               __________

                           Serial No. 108-65

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
94-316                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              BART GORDON, Tennessee
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
       AMY CARROLL Professional Staff Member/Chairman's Designee
                ADAM SHAMPAINE Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant


                            C O N T E N T S

                             June 24, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Mark Udall, Ranking Minority Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    12
    Written Statement............................................    13

                                Panel I:

The Hon. Rush Holt, a Representative in Congress from the State 
  of New Jersey
    Oral Statement...............................................    14
    Written Statement............................................    15

                               Panel II:

Mr. Thomas R. Wilkey, Chair, Independent Testing Authority (ITA) 
  Committee, National Association of State Election Directors
    Oral Statement...............................................    38
    Written Statement............................................    40

Ms. Carolyn E. Coggins, Director, ITA Services at SysTest Labs
    Oral Statement...............................................    42
    Written Statement............................................    44
    Biography....................................................    52
    Financial Disclosure.........................................    53

Dr. Michael I. Shamos, Professor of Computer Science, Carnegie 
  Mellon University
    Oral Statement...............................................    54
    Written Statement............................................    56
    Biography....................................................    59

Dr. Hratch G. Semerjian, Acting Director, National Institute of 
  Standards and Technology (NIST)
    Oral Statement...............................................    60
    Written Statement............................................    62
    Biography....................................................    65

Discussion.......................................................
  Election Management Best Practices and Acceptance Testing of 
    Voting Equipment.............................................    65
  Should All Computer-based Voting Equipment Be Required to Have 
    a Paper Trail?...............................................    68
  Technologies for Reducing Voter Fraud..........................    71
  Role and Ability of NIST to Address Voter Equipment Testing and 
    Evaluation Issues............................................    72
  What Does NIST Need to Fulfill This Role?......................    74
  What Do States and Other Entities Need to Do to Improve the 
    Technological Aspects of Elections?..........................    76

              Appendix: Answers to Post-Hearing Questions

.................................................................
Ms. Carolyn E. Coggins, Director, ITA Services at SysTest Labs       82

Dr. Hratch G. Semerjian, Acting Director, National Institute of 
  Standards and Technology (NIST)................................    85

 
TESTING AND CERTIFICATION FOR VOTING EQUIPMENT: HOW CAN THE PROCESS BE 
                               IMPROVED?

                              ----------                              


                        THURSDAY, JUNE 24, 2004

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to other business, at 2:20 
p.m., in Room 2318 of the Rayburn House Office Building, Hon. 
Vernon J. Ehlers [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     Testing and Certification for

                       Voting Equipment: How Can

                        the Process Be Improved?

                        thursday, june 24, 2004
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose:

    On Thursday, June 24, 2004, the House Science Subcommittee on 
Environment, Technology, and Standards will hold a hearing to examine 
how voting equipment is tested against voting system standards and how 
the independent laboratories that test voting equipment are selected.
    Each election season, a small number of newly deployed voting 
machines fail to perform properly in the field, causing confusion in 
the polling places and concerns over the potential loss of votes. 
Because these machines have already been tested and certified against 
standards, these incidents have raised questions about the reliability 
of the testing process, the credibility of standards against which the 
machines are tested, and the laboratories that carry out the tests. 
While most of the national attention on voting systems has been focused 
on the subjects of computer hacking and voter-verifiable paper ballots, 
press reports (see Appendix A) have also highlighted the problems of 
voting machine testing.
    A focus of the hearing will be how the implementation of the Help 
America Vote Act (HAVA) is intended to improve the way voting machines 
are tested, the role of the National Institute of Standards and 
Technology (NIST), and what changes can be implemented in time for the 
2004 election and beyond.

Witnesses:

Dr. Hratch Semerjian--Acting Director, National Institute of Standards 
and Technology (NIST).

Mr. Tom Wilkey--Chair of the National Association of State Elections 
Directors (NASED) Independent Testing Authority (ITA) Committee. He is 
the former Executive Director of the New York State Board of Elections.

Ms. Carolyn Coggins--Director of Independent Testing Authority Services 
for SysTest Laboratories, a Denver laboratory that tests software used 
in voting machines.

Dr. Michael Shamos--Professor of Computer Science at Carnegie Mellon 
University. He has served as an Examiner of Electronic Voting Systems 
for Pennsylvania.

Overarching Questions:

    The Subcommittee plans to explore the following questions:

        <bullet>  How are the accreditation of testing laboratories and 
        the testing and certification of voting equipment conducted?

        <bullet>  How should voting equipment standards and laboratory 
        testing be changed to improve the quality of voting equipment 
        and ensure greater trust and confidence in voting systems?

        <bullet>  What can be done to improve these processes before 
        the 2004 election, and what needs to be done to finish these 
        improvements by 2006?

Background:

Introduction
    In October 2002, Congress passed the Help America Vote Act (HAVA) 
to help correct the problems with voting machines that were brought to 
the public's attention during the 2000 federal election. Under HAVA, 
the States are receiving $2.3 billion in fiscal 2004 to purchase new 
voting equipment. To try to encourage and enable states to buy 
effective voting equipment, HAVA reformed the way standards for voting 
machines are developed and the way voting machines are tested against 
those standards. However, HAVA does not require any state or 
manufacturer to abide by the standards.
    Before the passage of the Help America Vote Act (HAVA), the Federal 
Election Commission (FEC) established voting system standards. A non-
governmental group of State elections directors (the National 
Association of State Elections Directors, or NASED) accredited the 
laboratories, also known as Independent Testing Authorities (ITAs), 
which then tested whether voting systems met the standards. With the 
passage of HAVA, the responsibility for issuing voting system standards 
and for accrediting the ITAs was transferred to the Election Assistance 
Commission (EAC). Under HAVA, the EAC is to select ITAs based on the 
recommendations of the National Institute of Standards and Technology 
(NIST). For more information on HAVA, see Appendix B.
    The transition to the new standards regime, however, has been slow. 
Members of the EAC were appointed at the end of 2003. Congress provided 
little funding this year to the EAC and none at all to NIST to begin to 
carry out its duties under HAVA. (At the Science Committee's 
instigation, the Administration was able to find $350,000 for NIST to 
carry out some of the most urgently needed work.) As a result, the 
current testing regime is essentially identical to that which existed 
before Congress passed HAVA.

The FEC Testing Regime
    The standards used today were first issued by the FEC in 1990 and 
last updated in 2002. Those standards, known as the Voting System 
Standard (VSS), deal with performance, security, and other aspects of 
voting systems have existed since 1990. The FEC developed the standards 
on a limited budget with input from NASED, voting experts, 
manufacturers, and interest groups, such as the disabled and the League 
of Women Voters, many of whom participated on a volunteer basis. 
Although no federal mandate requires that the standards be used, some 
States have adopted them as mandatory requirements.
    To qualify voting machines under the FEC standards, manufacturers 
must send their equipment to a NASED-approved laboratory (ITA) for 
testing and inspection. There are three ITAs: Wyle Laboratories, which 
tests hardware; and CIBER and SysTest laboratories, which test 
software.
    Prior to HAVA, the Federal Government had no official role in 
approving ITAs. The FEC did cooperate informally with NASED to identify 
laboratories that could become ITAs. However, few laboratories were 
willing to participate because they viewed voting machine certification 
as a risky venture that was unlikely to generate much revenue.
    Once a voting machine or its software has passed the current 
testing process, it is added to the NASED list of ``Qualified'' voting 
systems, which means they have met the FEC standards. The only publicly 
available information is whether a particular machine has passed 
testing; the complete tests results are not made public because they 
are considered proprietary information.
    Voting technology experts have raised a number of concerns about 
the standards and testing under the FEC system. They include:

        <bullet>  Some of the FEC Voting System Standards are 
        descriptive rather than quantitative, making it more difficult 
        to measure compliance.

        <bullet>  Many of the FEC Voting System Standards are described 
        very generally, for example those for security. Although this 
        avoids dictating specific technologies to the manufacturers, 
        the standards may require more specificity to be meaningful and 
        effective.

        <bullet>  The ITAs do not necessarily test the same things in 
        the same way so a test for a specific aspect of computer 
        security in one lab may not be the same test used in another.

        <bullet>  Hardware and software laboratories do not necessarily 
        know each other's testing procedures, and although 
        communication takes place between them, they are not required 
        to integrate or coordinate their tests.

        <bullet>  The ITAs, once chosen, are not regularly reviewed for 
        performance. Reaccreditation would help ensure that quality and 
        expertise did not decline or otherwise change over time, and 
        that any new testing protocols were being carried out 
        appropriately.

        <bullet>  Few States effectively test voting machines once they 
        are delivered even though ITA testing--like most product 
        testing--tests samples rather than every unit of a product. 
        When Georgia, in association with Kennesaw State University, 
        conducted their own independent test of their new machines, the 
        State sent five percent of them back to the manufacturer for 
        various defects.

        <bullet>  Companies offer, and States install, last-minute 
        software ``patches'' that have not been subjected to any 
        testing. California recently decertified new voting machines 
        because they included untested software patches.

        <bullet>  The small number of ITAs limits the amount of 
        competition on the basis of either price or quality.

        <bullet>  As is the case in most product testing, 
        manufacturers, rather than disinterested third parties, pay for 
        the testing.

The Pending NIST Testing Regime
    To fully implement HAVA, NIST will have to develop, and the EAC 
will have to approve standards that the voting equipment must meet (to 
replace the FEC Voting Systems Standards); tests to determine whether 
voting equipment complies with those standards; and tests to determine 
whether laboratories are qualified to become ITAs. NIST has begun 
preliminary work on some of these tasks, but has been constrained by 
scarce funds.
    Under HAVA, NIST is also to conduct an evaluation of any laboratory 
that wishes to become an ITA (including ITAs that were already 
accredited under the NASED system). Accreditation would then be granted 
by the EAC based on NIST's recommendations. HAVA also requires NIST to 
monitor the performance of the ITAs, including, if necessary, 
recommending that the EAC revoke an ITA's accreditation. (These 
provisions of HAVA originated in the House Science Committee.)
    NIST has not yet begun to implement this aspect of HAVA, but NIST 
recently announced that it will soon convene a meeting for those 
laboratories that are interested in becoming ITAs to discuss what 
qualifications they must meet.
    Since NIST has just begun developing lab accreditation standards, 
as an interim measure, NIST will probably accredit laboratories as ITAs 
using a generic, international standard for laboratories, known as ISO 
17025. NIST uses that standard already as part of its existing program 
for certifying laboratories for other purposes, known as the National 
Voluntary Laboratory Accreditation Program (NVLAP).
    Obviously, none of this will be done in time to affect the purchase 
of equipment for the 2004 elections, and many States are making large 
purchases of voting equipment now with the money available under HAVA. 
However, a number of large States have not yet purchased equipment 
partly because of uncertainty about what the new standards will be.

Limitations of Laboratory Testing in Reducing Errors in Voting 
        Equipment
    An improved federal certification process is a necessary, but not 
sufficient condition for improving the performance of voting equipment. 
According to experts, among the issues that remain are:

        <bullet>  No one is required to abide by the new system, 
        although presumably States will want to buy equipment that 
        meets the EAC standards and has been tested in federally 
        certified ITAs.

        <bullet>  Laboratories cannot test every situation that may 
        arise in the actual use of voting machines. Election experts 
        say States should do their own testing, including simulated 
        elections. Some States, for example Georgia, California, and 
        Florida, are implementing tests of their own.

        <bullet>  Pollworker training and voter education are critical 
        to reducing human error and resulting problems with voting 
        equipment. Technology that works perfectly can still be 
        confusing to the users.

WITNESS QUESTIONS

    In their letters of invitation, the witnesses were asked to respond 
to the following questions:
Questions for Dr. Semerjian:

        1.  How should the accreditation of testing laboratories and 
        the testing and certification of voting equipment be changed to 
        improve the quality of voting equipment and ensure greater 
        trust and confidence in voting systems?

        2.  What can be done to improve these processes before the 2004 
        election, and what needs to be done to finish these 
        improvements by 2006? Do enough Independent Testing Authorities 
        exist to carry out the needed tests? If not, what can be done 
        to increase the number of laboratories?

        3.  What progress has NIST made in carrying out the 
        requirements of the Help America Vote Act?

Questions for Mr. Wilkey:

        1.  How should the accreditation of testing laboratories and 
        the testing and certification of voting equipment be changed to 
        improve the quality of voting equipment and ensure greater 
        trust and confidence in voting systems?

        2.  What can be done to improve these processes before the 2004 
        election, and what needs to be done to finish these 
        improvements by 2006?

        3.  Do enough Independent Testing Authorities exist to carry 
        out the needed tests? If not, what can be done to increase the 
        number of laboratories?

Questions for Ms. Coggins:

        1.  How should the accreditation of testing laboratories and 
        the testing and certification of voting equipment be changed to 
        improve the quality of voting equipment and ensure greater 
        trust and confidence in voting systems?

        2.  What can be done to improve these processes before the 2004 
        election, and what needs to be done to finish these 
        improvements by 2006?

        3.  How do standards affect the way you test voting equipment?

Questions for Dr. Shamos:

        1.  How should the accreditation of testing laboratories and 
        the testing and certification of voting equipment be changed to 
        improve the quality of voting equipment and ensure greater 
        trust and confidence in voting systems?

        2.  What can be done to improve these processes before the 2004 
        election, and what needs to be done to finish these 
        improvements by 2006?

        3.  How important is NIST's role in improving the way voting 
        equipment is tested? What activities should States be 
        undertaking to ensure voting equipment works properly?

APPENDIX A

                       Who Tests Voting Machines?

                        New York Times Editorial
                              May 30, 2004

    Whenever questions are raised about the reliability of electronic 
voting machines, election officials have a ready response: independent 
testing. There is nothing to worry about, they insist, because the 
software has been painstakingly reviewed by independent testing 
authorities to make sure it is accurate and honest, and then certified 
by State election officials. But this process is riddled with problems, 
including conflicts of interest and a disturbing lack of transparency. 
Voters should demand reform, and they should also keep demanding, as a 
growing number of Americans are, a voter-verified paper record of their 
vote.
    Experts have been warning that electronic voting in its current 
form cannot be trusted. There is a real danger that elections could be 
stolen by nefarious computer code, or that accidental errors could 
change an election's outcome. But State officials invariably say that 
the machines are tested by federally selected laboratories. The League 
of Women Voters, in a paper dismissing calls for voter-verified paper 
trails, puts its faith in ``the certification and standards process.''
    But there is, to begin with, a stunning lack of transparency 
surrounding this process. Voters have a right to know how voting 
machine testing is done. Testing companies disagree, routinely denying 
government officials and the public basic information. Kevin Shelley, 
the California Secretary of State, could not get two companies testing 
his State's machines to answer even basic questions. One of them, Wyle 
Laboratories, refused to tell us anything about how it tests, or about 
its testers' credentials. ``We don't discuss our voting machine work,'' 
said Dan Reeder, a Wyle spokesman.
    Although they are called independent, these labs are selected and 
paid by the voting machine companies, not by the government. They can 
come under enormous pressure to do reviews quickly, and not to find 
problems, which slow things down and create additional costs. Brian 
Phillips, president of SysTest Labs, one of three companies that review 
voting machines, conceded, ``There's going to be the risk of a conflict 
of interest when you are being paid by the vendor that you are 
qualifying product for.''
    It is difficult to determine what, precisely, the labs do. To 
ensure there are no flaws in the software, every line should be 
scrutinized, but it is hard to believe this is being done for voting 
software, which can contain more than a million lines. Dr. David Dill, 
a professor of computer science at Stanford University, calls it 
``basically an impossible task,'' and doubts it is occurring. In any 
case, he says, ``there is no technology that can find all of the bugs 
and malicious things in software.''
    The testing authorities are currently working off 2002 standards 
that computer experts say are inadequate. One glaring flaw, notes 
Rebecca Mercuri, a Harvard-affiliated computer scientist, is that the 
standards do not require examination of any commercial, off-the-shelf 
software used in voting machines, even though it can contain flaws that 
put the integrity of the whole system in doubt. A study of Maryland's 
voting machines earlier this year found that they used Microsoft 
software that lacked critical security updates, including one to stop 
remote attackers from taking over the machine.
    If so-called independent testing were as effective as its 
supporters claim, the certified software should work flawlessly. But 
there have been disturbing malfunctions. Software that will be used in 
Miami-Dade County, Fla., this year was found to have a troubling error: 
when it performed an audit of all of the votes cast, it failed to 
correctly match voting machines to their corresponding vote totals.
    If independent testing were taken seriously, there would be an 
absolute bar on using untested and uncertified software. But when it is 
expedient, manufacturers and election officials toss aside the rules 
without telling the voters. In California, a State audit found that 
voters in 17 counties cast votes last fall on machines with uncertified 
software. When Georgia's new voting machines were not working weeks 
before the 2002 election, uncertified software that was not approved by 
any laboratory was added to every machine in the state.
    The system requires a complete overhaul. The Election Assistance 
Commission, a newly created federal body, has begun a review, but it 
has been slow to start, and it is hamstrung by inadequate finances. The 
commission should move rapidly to require a system that includes:
    Truly independent laboratories. Government, not the voting machine 
companies, must pay for the testing and oversee it.
    Transparency. Voters should be told how testing is being done, and 
the testers' qualifications.
    Rigorous standards. These should spell out in detail how software 
and hardware are to be tested, and fix deficiencies computer experts 
have found.
    Tough penalties for violations. Voting machine companies and 
election officials who try to pass off uncertified software and 
hardware as certified should face civil and criminal penalties.
    Mandatory backups. Since it is extremely difficult to know that 
electronic voting machines will be certified and functional on Election 
Day, election officials should be required to have a non-electronic 
system available for use.
    None of these are substitutes for the best protection of all: a 
voter-verified paper record, either a printed receipt that voters can 
see (but not take with them) for touch-screen machines, or the ballot 
itself for optical scan machines. These create a hard record of 
people's votes that can be compared to the machine totals to make sure 
the counts are honest. It is unlikely testing and certification will 
ever be a complete answer to concerns about electronic voting, but they 
certainly are not now.

APPENDIX B

                    The Help America Vote Act (HAVA)

    In 2002, the President signed the Help America Vote Act (HAVA) into 
law, which included a number of measures intended to improve the U.S. 
election system. Among other things, HAVA banned the use of punch card 
and lever voting machines and provided funds to the States to replace 
them. It established an Election Assistance Commission (EAC) to assist 
in the administration of federal elections and the administration of 
certain federal election laws and programs, and otherwise oversee the 
reforms recommended under HAVA. HAVA also established a number of basic 
requirements that voting machines and systems should meet, and a 
process by which new voluntary technical standards could be developed 
to ensure the reliability and accuracy of new voting equipment.
    The Science Committee included provisions in HAVA that designated 
the Director of the National Institute of Standards and Technology 
(NIST) to chair the Technical Guidelines Development Committee (TGDC), 
a 14-member panel charged with the development of voluntary voting 
system guidelines, or standards. HAVA also created a 110-member 
Standards Board consisting of State and local election officials, and a 
37-member Board of Advisors consisting of representatives from various 
associations, who together would review the standards recommended by 
the TGDC. The EAC was given the final word on whether these standards 
would be officially adopted. Once adopted, it would still be up to the 
States to determine whether the equipment they bought needed to meet 
the standards, since they are meant to be voluntary, not coercive.
    Chairman Ehlers. It is my pleasure to call this hearing to 
order. It is a hearing on Testing and Certification for Voting 
Equipment: How Can the Process be Improved? And we--I apologize 
for the delay in starting. That is the bad news. The good news 
is we are now unlikely to be interrupted by votes for the 
remainder of the hearing, so we should be able to proceed 
directly through it.
    I am pleased to welcome you today to today's hearing on 
improving the testing and certification of voting equipment. 
Most of the national attention on voting systems has focused on 
the subjects of computer hacking and voter verifiable paper 
ballots. However, recently, the New York Times and other 
organizations have brought more public attention to the subject 
of voting machine testing, the laboratories that test the 
machines, and the development of standards used to conduct the 
tests.
    All new models of voting machines sold in the U.S. today 
are certified by the National Association of State Elections 
Directors after having passed a series of tests administered by 
Independent Testing Authorities, known as ITAs, which are 
private laboratories. These tests are conducted to ensure that 
the machines meet certain standards for environmental 
tolerances, logic, and accuracy, computer security, and other 
metrics that make them fit for use in elections. Voting 
machines must also be certified by individual states before 
they can be purchased by State or local election officials.
    However, each election season, a small number of newly 
deployed voting machines fail to perform properly in the field, 
causing confusion in the polling places, and concerns over the 
potential loss of votes. Because these machines have already 
been tested and certified against Federal Election Commission 
standards, these incidents have raised questions about the 
reliability of the testing process, the credibility of 
standards against which the machines are tested, and the 
laboratories that carry out the tests. We must resolve this 
issue soon, because states are already receiving billions of 
federal dollars under the Help America Vote Act, or HAVA, to 
modernize their voting systems. It is crucial that voting 
systems be easy to use, accurate, verifiable, secure, and 
reliable, and all of those criteria must be met.
    The Science Committee, through HAVA, gave the National 
Institute of Standards and Technology, known as NIST, the role 
of improving the accreditation process of the laboratories 
carrying out the tests, and the standards against which 
machines must be tested and certified. Ultimately, NIST's 
activities under HAVA will improve the overall quality and 
performance of voting machines.
    Unfortunately, NIST did not receive any funding for these 
activities for this fiscal year, and the Administration did not 
request any for 2005. I am working with my colleagues to 
rectify this situation and provide NIST the money it needs. I 
am also encouraged that the Election Assistance Commission, 
which was created in HAVA to oversee overall voting reform, is 
requesting specific funding in 2005 for these important NIST 
activities.
    I look forward to hearing from our distinguished panel on 
how best to improve the testing and certification process for 
voting equipment. And I would like to add that this has been a 
project dear to my heart ever since the Florida election of a 
few years ago. I do have to say that what happened there was 
absolutely no surprise to me whatsoever. Anyone who has been 
through the electoral process before knows how easy it is for 
mistakes to occur, typically using poll workers who do it only 
a few times a year, and in fact, in my very first election, 
there was a problem because my opponent's listing and mine were 
switched in one polling place. I still won, but there was that 
problem, and it could have swung the election.
    The--it is very important for us to ensure the integrity of 
the voting process, and I must add I am particularly concerned 
about the possibilities of fraud, even though those of you 
testifying here today obviously are not the sort of persons who 
would commit voter fraud, but there is, I believe, an 
increasing trend of voter fraud across the country. We managed 
to get rid of Tammany Hall and all the other political machines 
of the past, where the fraud was quite obvious and deliberate, 
but I, in my work on the committees dealing with elections in 
the House, I have discovered that there are increasing problems 
with fraud in various parts of the country, and so we have to 
make sure that all our machines are fraud-proof to the greatest 
extent possible.
    Having said that, I would like to turn to the Ranking 
Member for his opening statement.
    [The prepared statement of Chairman Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Welcome to today's hearing on how to improve the testing and 
certification of voting equipment.
    Most of the national attention on voting systems has focused on the 
subjects of computer hacking and voter-verifiable paper ballots. 
However, recently the New York Times and other organizations have 
brought more public attention to the subject of voting machine testing, 
the laboratories that test the machines, and the development of 
standards used to conduct the tests.
    All new models of voting machines sold in the U.S. today are 
certified by the National Association of State Elections Directors, 
after having passed a series of tests administered by Independent 
Testing Authorities, which are private laboratories. These tests are 
conducted to ensure that the machines meet certain standards for 
environmental tolerances, logic and accuracy, computer security, and 
other metrics that make them fit for use in elections. Voting machines 
must also be certified by individual States before they can be 
purchased by State or local election officials.
    However, each election season, a small number of newly-deployed 
voting machines fail to perform properly in the field, causing 
confusion in the polling places and concerns over the potential loss of 
votes. Because these machines have already been tested and certified 
against Federal Election Commission standards, these incidents have 
raised questions about the reliability of the testing process, the 
credibility of standards against which the machines are tested, and the 
laboratories that carry out the tests. We must resolve this issue soon 
because States are already receiving billions of federal dollars under 
the Help America Vote Act (HAVA) to modernize their voting systems. It 
is crucial that voting systems be easy to use, accurate, verifiable, 
secure, and reliable.
    The Science Committee, through HAVA, gave the National Institute of 
Standards and Technology (NIST) the role of improving the accreditation 
process of the laboratories carrying out the tests, and the standards 
against which machines must be tested and certified. Ultimately, NIST's 
activities under HAVA will improve the overall quality and performance 
of voting machines.
    Unfortunately, NIST did not receive any funding for these 
activities for this fiscal year and the Administration did not request 
any for 2005. I am working with my colleagues to rectify this situation 
and provide NIST the money it needs. I am also encouraged that the 
Election Assistance Commission, which was created in HAVA to oversee 
overall voting reform, is requesting specific funding in 2005 for these 
important NIST activities.
    I look forward to hearing from our distinguished panel on how best 
to improve the testing and certification process for voting equipment.

    Mr. Udall. Thank you, Mr. Chairman. Along with the 
Chairman, I want to welcome all of you to this hearing today.
    As the Chairman mentioned, we are going to address a very 
important topic, which is the testing and certification of 
voting equipment and systems. And although this sounds like a 
set of dry topics, as the Chairman has mentioned, it is 
something that we rely upon every day. And I want to provide 
you the example I rely on, as I think everybody here does, on 
certification from Underwriters Laboratories, or UL, to tell me 
that my electric appliances are safe. I may not understand the 
standard and the test performed by UL, but I do understand that 
the result is a safe and reliable electric appliance. And that 
is exactly what we are here to examine today, how to ensure 
that voters can depend on the voting equipment that they use to 
be safe and reliable.
    This isn't an easy task. As the 2000 election pointed out, 
this is--was a wakeup call for our country, in that it exposed 
many problems with our voting equipment. And I should note that 
I think all of us, or most all of us have forgotten that back 
in 1988, some 16 years ago, NIST identified problems with punch 
card ballots, and recommended that they be retired from 
service. Unfortunately, that advice, that prescient advice, was 
ignored by the FEC and by State election officials.
    Four years after the events in Florida, in the last 
Presidential election, very little has been done to assure the 
public of the accuracy and integrity of our voting systems. In 
fact, with the press coverage of problems with the new 
generation of voting equipment, I wouldn't be surprised to find 
the public even more skeptical than they were four years ago. 
We have mentioned earlier HAVA, H-A-V-A, which passed with 
great fanfare, on the critical issue of testing and 
certification. The Administration has never requested the funds 
for NIST to do its job. And Congress, including this committee, 
have been lax, I believe, in its responsibilities, by not 
conducting appropriate oversight of the implementation of HAVA.
    My biggest concern at this point is that now we are faced 
with the sole option of too little, too late. I don't doubt 
that with time and money, NIST, the head of the Technical 
Guidelines Development Committee, could develop a rigorous set 
of standards, testing criteria, and an independent lab testing 
system. But we are less than four months from the November 
elections. We can't afford to be complacent and hope that the 
next election will run smoothly. And I think if there are 
problems, we may spend years rebuilding the public's confidence 
in our voting system. We need to squarely face the fact that 
there have been serious problems with voting equipment deployed 
across the country in the past two years.
    Let me end by reassuring the witnesses that I am not here 
to find blame. I think the blame, if there is blame to be 
apportioned, rests squarely with this Administration and this 
Congress. What I hope to learn today is that we can do some 
things to assure the public that the voting systems that they 
use are accurate, reliable, and secure.
    So I look forward to the testimony, and I would also add 
that we are--Mr. Chairman, we have been joined by Carolyn 
Coggins, who will sit on the second panel, who is a resident of 
Colorado, and whose business operations are in the 2nd 
Congressional District in part. So I want to welcome her in 
particular. With that, I would yield back if I have any time 
left.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good afternoon. I'd like to welcome everyone to today's hearing.
    Today we are going to address a very important topic--the testing 
and certification of voting equipment and systems. Although testing and 
certification sounds like a dry topic, it is something that we rely 
upon everyday.
    For instance, I rely on certification from Underwriters 
Laboratories, or UL, to tell me that my electric appliance is safe to 
use. I may not understand the standard and test performed by UL, but I 
do understand that the result is a safe and reliable electric 
appliance. That's exactly what we're here to examine today--how to 
ensure that voters can depend on the voting equipment they use to be 
safe and reliable.
    This is no easy task. The 2000 election was a wake-up call for this 
country in that it exposed problems with our voting equipment. I should 
note that many people have forgotten that back in 1988, NIST identified 
problems with punch-card ballots and recommended that they be retired 
from service. Unfortunately, NIST's advice was ignored by the FEC and 
by state election officials.
    So in March 2001, Democratic Members of the Science Committee and I 
introduced the first bill that called upon NIST to lead a Commission to 
develop standards and testing procedures for election equipment and 
systems. This base concept was eventually incorporated into the Help 
America Vote Act (HAVA), which brings us to today's hearing.
    Four years after the last presidential election, very little has 
been done to assure the public of the accuracy and integrity of our 
voting systems. In fact, with press coverage of problems with the new 
generation of voting equipment, I would not be surprised to find the 
public more skeptical than they were four years ago.
    Although HAVA was passed with great fanfare, on the critical issue 
of testing and certification the Administration has never requested the 
funds for NIST to begin to do its job. And Congress--including the 
Science Committee--has been lax in its responsibilities by not 
conducting appropriate oversight of the implementation of HAVA.
    My biggest concern is that we are now faced with the sole option of 
``too little, too late.'' I don't doubt that with time and money, 
NIST--as the head of the Technical Guidelines Development Committee 
(TGDC)--could develop a rigorous set of standards, testing criteria, 
and an independent lab testing system.
    But we are less than four months from the November elections. We 
can't afford to be complacent and hope that the next election will run 
smoothly. If there are any problems, we will spend years rebuilding the 
public's confidence in our voting systems. We need to squarely face the 
fact that there have been serious problems with voting equipment 
deployed across the country in the past two years.
    I want to reassure the witnesses that I'm not here to find blame--
the blame rests squarely with this Administration and the Congress. 
What I hope to learn today is what can be done to assure the public 
that the voting systems they use are accurate, reliable and secure.
    I look forward to your testimony.

                                Panel I

    Chairman Ehlers. I thank the gentleman for yielding back. 
We will begin with the first panel, consisting of one person, 
and at this time, I am pleased to introduce my colleague from 
New Jersey, my fellow physicist, Representative Rush Holt, who 
will provide his comments on this important topic.
    As both Rush and I know, physicists are both omniscient and 
omni-competent, and so I am looking forward to hearing his 
testimony.
    Mr. Holt.

STATEMENT OF HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Ehlers, Mr. Udall, Mr. Burgess, 
Mr. Gutknecht, Mr. Baird, Mr. Matheson. Thank you for having me 
here today. I have some prepared testimony that I would like to 
leave with you, but let me give a few summary remarks, if I 
may.
    We should begin by noting that it was the advent in the use 
of computers in voting that precipitated the development of 
national standards in the voting systems. The 2001 Caltech MIT 
Voting Technology Project reported that the first national 
effort to develop standards, a joint project of the then Bureau 
of Standards and the General Accounting Office Office of 
Federal Elections, focused on the accuracy and security of 
computerized voting systems. That was more than 25 years ago.
    Now, in the wake of 2002 elections, despite the enactment 
of the Help America Vote Act, what are we experiencing? Well, 
one after another, incidents or irregularities reported, on 
various computer voting systems. 100,000 votes disappearing 
into cyberspace, or maybe 100. Xes jumping from one candidates 
name to another. You know, 100,000 votes being recorded in a 
district where only 19,000 are registered to vote, and only 
5,000 turned up that day at the polls. In one jurisdiction 
after another election officials are being given pause.
    Now, like you, Mr. Ehlers, I am not surprised about this. 
As a physicist, I have programmed computers. I understand the 
kinds of things that could go wrong, and I am sure you and I, 
or any of us, could swap election stories of apparent 
irregularities, or close calls, or recounts, or whatever. What 
it comes down to today, a fundamental fact, that with the 
computer voting devices today, there is a gap between the 
casting of the vote and the recording of the vote that makes 
the process quite a bit different than what we have been used 
to before.
    When voting machines were simple, mechanical devices, no 
one much cared if the manufacturers helped local officials 
select and maintain their equipment, but with more 
sophisticated, computerized machines, and the sudden 
availability of hundreds of millions of dollars in federal 
subsidies, it has raised questions in the minds of members of 
the public and election officials.
    You know, in November 2003, allegations surfaced to the 
effect that uncertified software had been used in electronic 
voting systems in at least two California counties. In response 
to these allegations, the Secretary of State of California 
ordered an independent review be conducted of all voting 
systems in the state, and he has subsequently imposed a number 
of requirements on future voting in the state, particularly 
with regard to electronic or computerized voting machines.
    The Caltech MIT Voting Technology Project, to which I 
referred earlier, said that, quote, existing standards--the 
existing standards process is a step in the right direction, 
but it does not cover many of the problems that we have 
detected, the project has detected. Important things are not 
reviewed currently, including ballot and user interface 
designs, auditability, and accessibility. Well, HAVA went a 
long way in improving accessibility, and despite a certain 
amount of, well, some mention of auditability, I think it 
failed to really deal with that question, and it is on that 
that I wanted to spend a couple of minutes, because I think it 
has important implications for the certification process.
    With the computers, the mechanism is not transparent. Any 
of us who has programmed computers or has tried to debug 
someone else's program knows how easy it is for an error to lie 
undetected. A bug can enter the system in various ways, 
inadvertently or by malicious hacking. With the difficulty of 
monitoring all machines at all times, and the ease with which 
changes could be made, the ease with which changes could be 
concealed, or as I say, escape detection, it means that there 
is a much higher burden, and it is not good enough to just 
certify a certain machine, or even a certain class of machines. 
What is possible is that these problems could go undetected, 
and what concerns me even more than all of these reported 
irregularities that we have read about in the papers are the 
ones that have gone undetected, that we will never know about, 
that will not be subject to a recount because the margin maybe 
wasn't so small. There could be errors that we would never know 
about, and therefore, the certification process, I think, has 
to be designed to get at that, and the only way, I believe, 
that we can get at that problem is through auditability. In 
other words, a verifiability that is built into the system, and 
that is part of the audit process.
    I commend the Committee for holding these hearings, and I 
think it is important that we ensure that the testing and 
certification procedures used to scrutinize and safeguard the 
equipment have the highest possible caliber, but it is 
different from auditing other machines. It is different from 
auditing ATM or bank machines, because it is a secret ballot, 
and each ballot is secret, and therefore, it is impossible for 
the manufacturer and the vendor, or any election official, to 
reconstruct the intention of the voter in that secret booth. 
Only the voter knows his or her intention, and only the voter 
is in a position to verify whether the vote is recorded the way 
that she or he intended. That is why it is important that a 
process be built in to the system for verification, and I would 
argue that verification must belong to the voter, and I think 
the implications for certification are what should be explored 
in that context.
    [The prepared statement of Mr. Holt follows:]

             Prepared Statement of Representative Rush Holt

    Distinguished Members of the Committee, thank you for inviting me 
to come before you today to address the matter of the testing and 
certification of voting systems used in the United States, as well as 
the accreditation of independent testing authorities (ITAs). As the 
Committee knows, the integrity of the electoral system in the United 
States is a matter of great concern to me. Any and all current 
shortcomings in existing testing, certification and accreditation 
procedures must certainly be addressed, but in addition, the inherent 
limits in the protection that may be provided by even the best such 
procedures must also be acknowledged.
    It should be noted that it was the advent of the use of computers 
in voting that precipitated the development of national standards for 
voting systems. Prior to the use of computers in the electoral system, 
there were no national standards for voting systems, nor, I expect, did 
anyone particularly see the need for them. When voting systems were 
strictly paper-based, or strictly mechanical, the average citizen--or 
election official--could readily understand all there was to know about 
the system, and implement it without extensive study or training. With 
the advent of computer voting systems, the average citizen--and the 
average election official--has become almost completely reliant on the 
representations of the system vendors, and the technologists who test 
and certify them, that the systems will function properly.
    The 2001 Caltech MIT Voting Technology Project reported that the 
first national effort to develop standards, a joint project of the 
National Bureau of Standards and the General Accounting Office's Office 
of Federal Elections, ``focused on the accuracy and security of 
computerized voting systems.'' Published in 1975, more than 25 years 
ago, the report, entitled ``Effective Use of Computing Technology in 
Vote Tallying'' stated that ``one of the basic problems with this 
technology was the lack of evaluative standards and testing procedures 
for election systems.'' That 1975 report led to Congressional action, 
which resulted in the development of voluntary voting system standards 
by the Federal Election Commission (FEC) and the National Institute of 
Standards and Technology (NIST) in 1984, which were used by the FEC to 
promulgate national standards and testing procedures in 1990. Those 
1990 voluntary standards covered punch card, optical scan, and direct 
recording electronic (DRE) voting systems, and have been adopted by 
more than half of the states for use in certifying the voting systems 
used in those states.
    The Caltech MIT Voting Technology Project continued, however, by 
saying that ``[t] existing standards process is a step in the right 
direction, but it does not cover many of the problems that we have 
detected. . .important things are not reviewed currently, including 
ballot and user interface designs, auditability, and accessibility.'' 
Auditability is, and obviously must be, among the very most critical 
aspects of any testing and certification process. The Caltech MIT study 
further stated, under the heading ``Create a New Standard for Redundant 
Recordings,'' ``[a]ll voting systems should implement multiple 
technological means of recording votes. For example, DRE/touchscreen 
systems should also produce optical scan ballots. This redundancy 
insures that independent audit trails exist post-election, and it helps 
insure that if fraud or errors are detected in one technology there 
exists an independent way to count the vote without running another 
election.''
    The Caltech MIT study reported the results of a 12-year study 
covering elections between 1988 and 2000. It was the joint effort of 
computer scientists, human factors engineers, mechanical engineers and 
social scientists; the project organizers met with leading election 
officials, researchers and industry representatives. In their joint 
statement releasing the report, the Presidents of the California 
Institute of Technology and the Massachusetts Institute of Technology 
said that in the aftermath of the 2000 election ``America learned that 
at the heart of their democratic process, their `can-do' spirit has 
`make-do' technology as its central element. For many years, we have 
`made do' with this deeply flawed system, but we now know how poorly 
these systems function. Until every effort has been made to insure that 
each vote will be counted, we will have legitimate concerns about 
embarking on another presidential election.''
    In the wake of the 2000 election, hundreds, if not thousands, of 
the best minds in our country were working on the problem of our flawed 
election system. The 2001 Caltech MIT study was released well before 
the Help America Vote Act (HAVA) was passed in October 2002. And yet, 
HAVA did not mandate what this critical study recommended--standards, 
if not actual laws--requiring an independent audit mechanism. Not a 
privatized audit mechanism, not a vendor-verified audit mechanism, but 
a meaningful, independent audit mechanism.
    In the wake of the 2002 election, and despite the enactment of 
HAVA, what are we experiencing? One after another incident of 
irregularities reported on computer voting systems. 100,000 votes 
disappearing into cyberspace, or even just 100. ``X''s jumping from one 
candidate's name to another. More than 100,000 votes being recorded in 
a district where only 19,000 were registered to vote, and only 5,000 
voted. In one jurisdiction after another, election officials are being 
given pause.
    Despite the fact that national standards have been developed and 
implemented and improved upon over the past three decades, and despite 
the fact the standards in use today do cover and have been used to 
certify DRE and other electronic voting systems, electronic voting 
system irregularities have not been prevented. Let's consider the 
example of California.
    In November 2003, allegations surfaced to the effect that 
uncertified software had been used in electronic voting systems in at 
least two California counties. In response to those allegations, 
Secretary of State Kevin Shelley ordered that an independent audit be 
conducted of all voting systems used in the state. In his press release 
announcing the audit he said ``[T]o ensure that the integrity of 
California's elections process has not been compromised, I will make 
certain that all California systems are in compliance with State 
security standards.'' The result of the audit--it was discovered that 
Diebold Election Systems had used uncertified software in all 17 
California counties in which it's electronic voting equipment was used. 
Fourteen of those counties had used software that had been federally 
qualified, but not certified by State authorities. The other three used 
software that had not been certified at the State nor qualified at the 
federal level. In April 2004, Secretary of State Shelley banned the use 
of touch screen systems in four counties and decertified all touch 
screen systems in California for use unless and until those systems 
were brought into compliance with additional security measures. Kevin 
Shelley's Decertification Order, and his recently release standards for 
Accessible Voter Verified Paper Audit Trail Systems, are attached as 
Appendix A.
    California is in a sense an extreme example, but perhaps only 
because Secretary of State Shelley acted upon the first indication of a 
problem, and discovered and confronted those problems. But again, 
reports of irregularities on electronic voting systems abound, and have 
occurred in states from one shore of this country to the other. In how 
many other states might similar deficiencies in testing or 
certification be found? As we all know, the voting systems Secretary of 
State Shelley decertified in 2004 had just been used in the recall 
election in California in 2003. And those touch screen systems were not 
independently unauditable. Three decades of work developing and fine 
tuning national standards did not protect voters in the State of 
California, and have not necessarily protected voters elsewhere. Were 
those three decades of effort all for naught? Of course not. Were the 
standards developed worthless? Of course not. But we can plainly see by 
this one example that perfecting testing and certification procedures 
is not, nor will it ever be, the end of the inquiry.
    Johns Hopkins Computer Scientist Aviel Rubin, co-author of the 
analysis released in the summer of 2003 that described ``stunning, 
stunning'' flaws in the software used in Maryland's touch screen voting 
systems, has issued a challenge, entitled ``Can a Voting Machine that 
is Rigged for a Particular Candidate Pass Certification?'' In it he 
says ``[p]roponents of DREs argue that the ITA [Independent Testing 
Authorities] process would catch any attempts to manipulate the 
results. They argue that Trojan horse programs would have to have 
magical properties and that they would be detected. They further argue 
that techniques such as parallel testing, where machines are selected 
at random and elections are run on them on election day where they are 
checked for accuracy, ensure that no such rigging is possible. Security 
experts do not buy these arguments.''
    In short, Professor Rubin proposes that a team of computer security 
experts be given access to one of the major vendors, full authority to 
produce a rigged machine, and that that machine then be presented to an 
ITAs that is unaware of the challenge, along with all the other 
machines, to determine whether the ITA could discover the rigging. If 
not, that would demonstrate that voting system vendor's employee could 
rig an election. Would any of the ITAs accept this challenge? Would any 
vendor? I think it would be a worthwhile endeavor, although, as 
Professor Rubin points out, the testing and certification process is 
analogous to airline security procedures--``just like successfully 
catching an agent with a concealed weapon at the airport does not mean 
the next guy won't get through,'' even if the ITA in question discovers 
the rigged machine in question, that doesn't mean the next rigged 
machine won't get through.
    Even in the absence of such a challenge, the Committee should leave 
no stone unturned in determining exactly how the Diebold systems used 
in California, Maryland other jurisdictions have passed muster with the 
ITA's in question. In every instance in which an irregularity has been 
reported in connection with the use of any electronic voting system, 
the same inquiry should be made. In every instance, the Committee 
should ask, are testing and certification procedures capable of being 
implemented with perfection? Will they find every flawed or rigged 
machine? In the wake of September 11, despite the obviously heightened 
security at our airports, has every single weapon sought to be smuggled 
onto an aircraft, has every mechanical malfunction, been found before 
take-off?
    It is also of critical importance to note that the ``revolving 
door'' for employees between vendors, testers and certifiers perhaps 
ought to be closed, permanently. Going back to California, take for 
example the recent report in the San Francisco area online periodical 
the Contra Costa Times:

         ``Critics say. . .close, often invisible, bonds link election 
        officials to the equipment companies they are supposed to 
        regulate. When voting machines were simple mechanical devices, 
        no one much cared if manufacturers helped local officials 
        select and maintain their equipment. But a switch to 
        sophisticated computerized machines, and the sudden 
        availability of hundreds of millions of dollars in federal 
        subsidies, has raised questions about counties' dependence on 
        private firms. While a revolving door between government 
        service and private-sector jobs is common, some observers argue 
        that such cozy familiarity has led public officials to overlook 
        flaws in controversial electronic voting systems, putting 
        elections at risk.''

    Attached as Appendix B to my statement is a copy of an editorial 
published in the New York Times on June 13, 2004, entitled ``Gambling 
on Voting,'' which makes the point that slot machines are subject to 
more rigorous testing and certification procedures than voting systems.
    I would like to commend the Committee for holding this hearing, and 
for taking action to ensure that the testing and certification 
procedures used to scrutinize and safeguard the equipment used in our 
elections are of the highest possible caliber. But I would at the same 
time urge the Committee to recommend, as was recommended by the Caltech 
MIT study, that DRE/touch screen systems produce optical scan or other 
paper ballots, so that an independent audit trail will exist in each 
election, and help insure that if fraud or errors are detected there 
will be an independent way to count the vote short of running another 
election. We most definitely ``can-do'' this, and ``making-do'' without 
it does nothing short of placing this very democracy at risk.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Appendix B

                           Gambling on Voting

             Published in the New York Times, June 13, 2004

    If election officials want to convince voters that electronic 
voting can be trusted, they should be willing to make it at least as 
secure as slot machines. To appreciate how poor the oversight on voting 
systems is, it's useful to look at the way Nevada systematically 
ensures that electronic gambling machines in Las Vegas operate honestly 
and accurately. Electronic voting, by comparison, is rife with lax 
procedures, security risks and conflicts of interest.
    On a trip last week to the Nevada Gaming Control Board laboratory, 
in a State office building off the Las Vegas Strip, we found testing 
and enforcement mechanisms that go far beyond what is required for 
electronic voting. Among the ways gamblers are more protected than 
voters:

        1.  The State has access to all gambling software. The Gaming 
        Control Board has copies on file of every piece of gambling 
        device software currently being used, and an archive going back 
        years. It is illegal for casinos to use software not on file. 
        Electronic voting machine makers, by contrast, say their 
        software is a trade secret, and have resisted sharing it with 
        the states that buy their machines.

        2.  The software on gambling machines is constantly being spot-
        checked. Board inspectors show up unannounced at casinos with 
        devices that let them compare the computer chip in a slot 
        machine to the one on file. If there is a discrepancy, the 
        machine is shut down, and investigated. This sort of spot-
        checking is not required for electronic voting. A surreptitious 
        software change on a voting machine would be far less likely to 
        be detected.

        3.  There are meticulous, constantly d standards for gambling 
        machines. When we arrived at the Gaming Control Board lab, a 
        man was firing a stun gun at a slot machine. The machine must 
        work when subjected to a 20,000-volt shock, one of an array of 
        rules intended to cover anything that can possibly go wrong. 
        Nevada adopted new standards in May 2003, but to keep pace with 
        fast-changing technology, it is adding new ones this month.

              Voting machine standards are out of date and inadequate. 
        Machines are still tested with standards from 2002 that have 
        gaping security holes. Nevertheless, election officials have 
        rushed to spend hundreds of millions of dollars to buy them.

        4.  Manufacturers are intensively scrutinized before they are 
        licensed to sell gambling software or hardware. A company that 
        wants to make slot machines must submit to a background check 
        of six months or more, similar to the kind done on casino 
        operators. It must register its employees with the Gaming 
        Control Board, which investigates their backgrounds and 
        criminal records.

              When it comes to voting machine manufacturers, all a 
        company needs to do to enter the field is persuade an election 
        official to buy its equipment. There is no way for voters to 
        know that the software on their machines was not written by 
        programmers with fraud convictions, or close ties to political 
        parties or candidates.

        5.  The lab that certifies gambling equipment has an arms-
        length relationship with the manufacturers it polices, and is 
        open to inquiries from the public. The Nevada Gaming Control 
        Board lab is a State agency, whose employees are paid by the 
        taxpayers. The fees the lab takes in go to the State's general 
        fund. It invites members of the public who have questions about 
        its work to call or e-mail.

              The federal labs that certify voting equipment are 
        profit-making companies. They are chosen and paid by voting 
        machine companies, a glaring conflict of interest. The voters 
        and their elected representatives have no way of knowing how 
        the testing is done, or that the manufacturers are not applying 
        undue pressure to have flawed equipment approved. Wyle 
        Laboratories, one of the largest testers of voting machines, 
        does not answer questions about its voting machine work.

        6,  When there is a dispute about a machine, a gambler has a 
        right to an immediate investigation. When a gambler believes a 
        slot machine has cheated him, the casino is required to contact 
        the Gaming Control Board, which has investigators on call 
        around the clock. Investigators can open up machines to inspect 
        their internal workings, and their records of recent gambling 
        outcomes. If voters believe a voting machine has manipulated 
        their votes, in most cases their only recourse is to call a 
        board of elections number, which may well be busy, to lodge a 
        complaint that may or may not be investigated.

    Election officials say their electronic voting systems are the very 
best. But the truth is, gamblers are getting the best technology, and 
voters are being given systems that are cheap and untrustworthy by 
comparison. There are many questions yet to be resolved about 
electronic voting, but one thing is clear: a vote for president should 
be at least as secure as a 25-cent bet in Las Vegas.
    Chairman Ehlers. Thank you, Mr. Holt. As you well know, 
normally Members are not questioned by their colleagues, 
because we have ample opportunities to discuss it with you.
    I would just add one quick comment to illustrate the 
difficulty of what you are referring to, and that is that I 
have also programmed computers many times--it is even possible 
to program the computer to present to the voter a verifiable 
notification of some sort, and yet record a different result in 
the memory, and so that--even that verification has 
difficulties. So, we have a lot of problems to deal with, but 
thank you very much for your testimony. I appreciate--you 
certainly----
    Mr. Boehlert. Mr. Chairman, is this the witness and the 
Chair 100 percent of the House physicists caucus?
    Mr. Holt. This you see before you the bipartisan physics 
caucus of the 108th Congress.
    Chairman Ehlers. And as soon as we can find a phone booth 
for the straw court, we will have our office.
    Mr. Boehlert. Well, thank you, Dr. Ehlers, and thank you, 
Dr. Holt.
    Chairman Ehlers. Thank you. Thank you very much. Thank you 
for coming, Mr. Holt.
    Mr. Baird. Mr. Chairman, if I may. Mr. Chairman. I would 
just like to express my profound respect and appreciation for 
the gentleman's work.
    Chairman Ehlers. Yes.
    Mr. Baird. I can tell you, I receive letters and phone 
calls from constituents who are profoundly concerned about 
this, and there are no PACs, there are no political 
contributions that go with is. This is a Member of the Congress 
fighting for a fundamental principle of one person, one vote, 
and that votes be fairly counted, and I have a tremendous 
admiration and gratitude for the gentleman, and we all owe him, 
as Americans, a debt of appreciation.
    Mr. Holt. Thank you. I thank Mr. Baird. And I would say, 
Mr. Udall said that this may seem to be a dry topic. Let me 
tell you that this is a topic that has excited hundreds of 
thousands, if not millions of Americans. Since four years ago, 
I think we have had an education here in the United States 
about voting, and it has excited many people, and I am 
certainly pleased to see that so many Americans believe their 
vote is sacred, and they are taking steps to see that their 
votes are protected.
    Chairman Ehlers. I thank you for your comments, your 
testimony, and let me assure you this subcommittee shares that. 
That is why we wrote the legislation two years ago, and wish it 
had been even stronger in the final version, and fully funded. 
Thank you for being here.
    If there is no objection, all additional opening statements 
submitted by the Subcommittee Members will be added to the 
record. Without objection, so ordered.
    We will now ask the second panel to take their places at 
the table. At this time, I would like to introduce our second 
panel of witnesses. Mr. Tom Wilkey is the Chair of the National 
Association of State Election Directors, also known as NASED, 
and he is Chair of the Independent Testing Authority Committee, 
I believe. Ms. Carolyn Coggins is the Director of ITA Services 
at SysTest Labs, an Independent Testing Authority for software, 
based in Boulder, Colorado. Dr. Michael Shamos is a Professor 
of Computer Science at Carnegie Mellon University. And a 
familiar face, Dr. Hratch Semerjian, is the Acting Director of 
the National Institute of Standards and Technology.
    As our witnesses presumably have already been told, you 
will each have five minutes to offer your spoken testimony. If 
your written testimony is longer than that, we ask you to 
summarize it within the five minute time periods. And after you 
complete your five minutes, then we will each question you, and 
each of us will have five minutes to do so. The timer, in case 
you haven't been told, will display green during the first four 
minutes of your talk, yellow during the last minute, and red, 
all sorts of exciting things happen. So try to wrap up before 
it turns red.
    At this point, we will open our first round. Mr. Wilkey, 
you may proceed. Would you please turn on your microphone?

                                Panel II

 STATEMENT OF MR. THOMAS R. WILKEY, CHAIR, INDEPENDENT TESTING 
   AUTHORITY (ITA) COMMITTEE, NATIONAL ASSOCIATION OF STATE 
                       ELECTION DIRECTORS

    Mr. Wilkey. Thank you, Mr. Chairman, and I am Thomas 
Wilkey. I am the former Executive Director of the New York 
State Board of Elections, having retired from that position 
last August. However, I continue to chair the NASED Voting 
Systems Board, and I am pleased to appear before you today to 
discuss the work that has been done by the National Association 
of State Election Directors, NASED, with regards to the 
selection of Independent Test Authorities, and its program to 
encourage states to adopt the federal voting system standards, 
and to utilize test reports which have been issued by these 
ITAs.
    My involvement in the development of the Federal Voting 
System Standards began several years before NASED became an 
official organization. Several of my colleagues worked with me 
on an advisory panel in assisting the FEC in the development of 
the first set of voluntary standards in 1990. These standards 
were developed over a 5-year period, between 1985 and 1990, and 
the initial drafts were contracted to the late Robert Naegele 
of Granite Creek Technology, who had for many years worked in 
the area of voting system testing for the State of California.
    Following the adoption of the standards in 1990, it became 
evidence that states were not adopting these standards. Because 
the Federal Government was not interested in the selection of 
qualified Independent Testing Authorities, the standards were 
destined to lie on a shelf collecting dust, and the hard work 
of developing them would have been in vain. At that time, NASED 
was formed, and at one of their earlier meetings, discussions 
took place to try to develop a program that would encourage 
member States to adopt the standards, select and qualify 
testing laboratories that would not only test equipment and 
software, but provide reports to states which needed them as a 
component of their own certification process.
    Identifying laboratories qualified to do this testing, and 
by having member States participate in this program, vendors 
would need only go to one or two laboratories to have 
comprehensive testing completed, thus saving time and money by 
avoiding duplicate testing in each state.
    Needless to say, our plans did move quickly in those early 
years, as it was difficult to find laboratories that were 
willing to do the work, given the economic realities of the 
times, and a somewhat less than perfect fit into their overall 
business plans.
    At the outset, a handbook was developed by Bob Naegele, 
which was utilized as a checklist for prospective laboratories, 
outlining the necessary personnel and equipment to do the work. 
This handbook was revised several years ago, and a copy has 
been provided to the Committee.
    NASED was very pleased that Wylie Laboratories in 
Huntsville, Alabama stepped up to the plate to become our first 
ITA. Their expertise in the testing of hardware and software 
for NASA and other U.S. government agencies is internationally 
recognized, and they have continued to this day to work with us 
toward the qualification of numerous voting systems in use 
throughout the country.
    Over the years, Wylie has been joined by Ciber, Inc. of 
Huntsville, Alabama, and SysTest Laboratories of Denver, 
Colorado, who have been qualified as software laboratories. 
SysTest has recently been qualified to test hardware as well, 
and joins us today in our presentation to the Committee.
    Over the years, while we have encouraged other laboratories 
to join this project, the consideration of the sheer volume of 
business and the negative publicity of late caused most others 
to decline this opportunity. We continue to encourage others to 
look at this program as we transition this program to the 
Election Assistance Commission and to NIST in the next several 
months.
    NASED's involvement in the development of the 2002 
standards was twofold. In the late 1990's, NASED requested the 
FEC provide funding for revisions that NASED thought were 
needed, based on the testing and evaluation that had been done 
over the past several years, and the fact that standards were 
now nearly 10 years old. New technology and issues not 
considered in the original standards needed to be addressed.
    The FEC acted on our request and authorized a contract with 
Mantec, Incorporated, to conduct a needs assessment and 
evaluation to determine if the project indeed needed to be 
done, and if so, the scope of the work to be done.
    As a result of the needs assessment, the FEC awarded a 
contract to AMS Consulting to draft the revised standards and 
prepare them for a series of public comment periods required by 
federal law. NASED's contribution to the project included the 
involvement of NASED's Voting Systems Standards Board, as 
members of an ad hoc advisory group.
    It is important for the Committee to understand several 
important facts as they relate to NASED's role in the selection 
of ITAs.
    First, there is a misconception that NASED certifies voting 
equipment, or voting systems. NASED's role is solely limited to 
review and qualify perspective ITAs, and provide for the review 
of reports by its technical subcommittee before they are sent 
to the vendors, and to, ultimately, State ITAs and others 
designated by states to receive and review them.
    NASED, through its Secretariat, who for many years, had 
been the Election Center, had placed on its web sites 
information regarding systems which had been qualified under 
the standards, so that States and local jurisdictions, 
particularly those who had no formal certification process, 
could know that a system had met the voluntary federal voting 
system requirements. This secretarial role was turned over to 
the Election Assistance Commission in November of 2003.
    Member of NASED's Voting System Board served on a voluntary 
basis, receiving no salary or compensation, and in many cases, 
traveling at their own expense to intense sessions held on 
weekdays or on weekends in Huntsville, or in other areas across 
the country. The Election Center received no compensation 
whatsoever, except for reimbursement of room expenses. The sum 
and substance of this was that this program operated on a 
purely voluntary basis without any funding from the Federal 
Government, nor, with the exception of the travel expenses for 
some members, without any State or local funding.
    NASED has worked closely since January of 2003 with NIST on 
the transition of this program to the Technical Guidelines 
Development Committee, under the Election Assistance 
Commission. Regular meetings will hopefully provide for a 
smooth transition and eventual reevaluation of ITAs by the EAC 
and NIST, and the consideration of other issues which we have 
dealt with as part of our program.
    NASED is proud of what we have tried to accomplish. We know 
that there have been weaknesses in the program, but that it is 
finally the day to get the day to day full-time attention that 
is needed under the EAC and NIST.
    Voting System Board members, election directors, and 
dedicated experts in the field of technology have given 
thousands of hours of their personal time and talent to this 
program, because they wanted to make a difference.
    Together, colleagues rose to meet a tremendous challenge, 
with a single goal in mind, to help ensure the integrity of 
America's voting systems and processes. Absent these bold 
motives almost 15 years ago, recent scenarios would have been 
significantly worse.
    Many people have said to me over the past several months 
that given the current media attention on voting systems, it 
would have been understandable had we thrown in the towel on 
this critical issue. But looking back, I can say with 
confidence that we can be proud of what we accomplished, as we 
tried to do something rather than nothing at all.
    Thank you for the opportunity to testify today and for your 
interest in this matter.
    [The prepared statement of Mr. Wilkey follows:]

                 Prepared Statement of Thomas R. Wilkey

Mr. Chairman and Members of the Committee;

    I am pleased to have the opportunity to appear before you today to 
discuss the work that has been done by the National Association of 
State Election Directors (NASED) with regards to the selection of 
Independent Test Authorities (ITA) and it's program to encourage states 
to adopt Federal Voting System Standards and utilize test reports which 
have been issued by these ITAs.
    My involvement in the development of the Federal Voting System 
Standards began several years before NASED became an official 
organization. Several of my colleagues worked with me on an Advisory 
panel in assisting the FEC in the development of the first set of 
voluntary Standards in 1990.
    These standards were developed over a five-year period (1985-1990) 
and the initial drafts were contracted to the late Robert Naegele of 
Granite Creek Technology who had for many years, worked in the area of 
voting system testing for the State of California.
    Following the adoption of the standards in 1990, it became evident 
that States were not adopting the standards. Because the Federal 
Government was not interested in the selection of qualified Independent 
Testing Authorities, the standards were destined to lie on a shelf, 
collecting dust and the hard work of developing them would have been in 
vain.
    At that time NASED was formed, and at one of their earlier 
meetings, discussions took place to try to develop a program that would 
encourage member States to adopt the standards, select and qualify 
testing laboratories that would not only test equipment and software, 
but provide reports to states which needed them as a component of their 
own certification process.
    By identifying laboratories qualified to do this testing and by 
having member States participate in the program, vendors would only 
need to go to one or two laboratories to have comprehensive testing 
completed, thus saving time and money by avoiding duplicative testing 
in each state.
    Needless to say our plans did not move quickly in these early 
years, as it was difficult to find laboratories that were willing to do 
the work, given the economic realities of the times, and a somewhat 
less then perfect fit into their overall business plans.
    At the outset, a handbook was developed by Bob Naegele which was 
utilized as a check list for prospective laboratories, outlining the 
necessary personnel and equipment to do the work. The handbook was 
revised several years ago and a copy has been provided to the 
committee. Mr. Steve Freeman, who joins me on the panel today is here 
to briefly outline the steps taken to qualify a test laboratory as he 
has been involved in this task for NASED and has received training 
under the National Institute of Standards and Technology (NIST) to do 
so in future evaluations.
    NASED was very pleased that Wylie Laboratories in Huntsville, 
Alabama stepped up to the plate to become our first ITA. Their 
expertise in the testing of hardware and software for NASA and other 
U.S. Government agencies is internationally recognized and they have 
continued to this day to work with us toward the qualification of 
numerous voting systems in use throughout the country.
    Over the years, Wylie has been joined by Ciber Inc. of Huntsville, 
Alabama and SysTest Laboratories of Denver, CO. who have been qualified 
as software laboratories. SysTest has recently been qualified to test 
hardware as well and joins us today in our presentation to the 
Committee.
    Over the years, while we have encouraged other laboratories to join 
this project, their consideration of the sheer volume of business and 
the negative publicity of late, caused most others to decline this 
opportunity. We continue to encourage others to look at this program 
and as we transition this program to the Election Assistance Commission 
and to NIST in the next several months we know that they will be 
reaching out to all interested parties as well.
    NASED's involvement in the development of the 2002 standards was 
two-fold:

    In the late 1990's NASED requested that the FEC provide funding for 
the revisions that NASED thought were needed, based on the testing and 
evaluation that had been done over the past several years and the fact 
that the standards were now nearly ten years old. New technology and 
issues, not considered in the original standards needed to be 
addressed.
    The FEC acted on our request and authorized a contract with Mantec 
Inc. to conduct a needs assessment and evaluation to determine if the 
project indeed needed to be done and if so, the scope of the work to be 
done.
    As a result of the needs assessment, the FEC awarded a contract to 
AMS Consulting to draft the revised standards and prepare them for a 
series of public comment periods required by federal law. NASED's 
contribution to the project included the involvement of NASED's Voting 
System Standards Board as members of an ad hoc advisory group to review 
the document and make suggestions for improvement. The 2002 Standards 
were released in the fall of that year.
    It is important for this Committee to understand several important 
facts as they relate to NASED's role in the selection of ITAs, the 
development of standards, and our overall program.
    First, there is a misconception that NASED ``certifies'' voting 
systems. NASED's role is solely to review and qualify prospective ITAs 
and provide for the review of reports by it's technical subcommittee, 
before they are sent to the vendors and ultimately to State ITAs and 
others designated by the states to receive and review same.
    NASED, through it's secretariat, who for many years has been the 
Election Center, has placed on its web sites, information regarding 
systems which had been qualified under the standards, so that States 
and local jurisdictions, particularly those who had no formal 
certification process, can know that a system has met the voluntary 
federal voting system requirements. This secretariat role was turned 
over to the Election Assistance Commission in November 2003.
    Members of NASED's voting system board served on a voluntary basis, 
receiving no salary or compensation and in many cases traveled at their 
own expense to attend sessions held on weekdays as well as weekends in 
Huntsville and the Election Center served as our Secretariat did so 
without any compensation, except for the reimbursement of meeting room 
expenses. The sum and substance of this was that this program operated 
on a purely voluntary basis without any funding from the Federal 
Government, nor with the exception of travel expenses for some members, 
without any State or local funding.
    NASED has worked closely since January of 2003 with NIST on the 
transition of this program to the Technical Guidelines Development 
Committee under the Election Assistance Commission. Regular meetings 
will hopefully provided for a smooth transition, and the eventual re-
evaluation of ITAs by the EAC and NIST, and the consideration of other 
issues which we have dealt with as part of our program.
    NASED is proud of what we have tried to accomplish. We know there 
have been weaknesses in the program, but that it will finally get the 
day-to-day full-time attention that it needed but never realized under 
the voluntary nature of our program.
    Voting System Board members, election directors and dedicated 
experts in the field of technology have given thousands of hours of 
their personal time and talent to this program because they wanted to 
make a difference. Together, colleagues rose to meet a tremendous 
challenge, with a single goal in mind--to help ensure the integrity of 
America's voting systems and processes. Absent those bold motives 
almost 15 years ago, recent scenarios would have been significantly 
worse.
    Many people have said to me over the past several months, that 
given the current media attention on voting systems, it would have been 
understandable had we thrown in the towel on this critical issue. But 
looking back, I can say with confidence that we can be proud of what we 
accomplished, as we try to do something rather than nothing at all.
    Thank you for the opportunity to testify today and for your 
interest in this important matter.

    Chairman Ehlers. Thank you for your comments. Ms. Coggins.

STATEMENT OF MS. CAROLYN E. COGGINS, DIRECTOR, ITA SERVICES AT 
                          SYSTEST LABS

    Ms. Coggins. Mr. Chairman and Members of the Committee, I 
am Carolyn Coggins from SysTest Labs. We are the only combined 
hardware and software NASED Independent Test Authority. Thank 
you for inviting us here today to speak about qualification 
testing.
    NASED qualification testing is, to the 2002 FEC Voting 
System Standards. All testing conforms to two VSS processes. 
This first is the physical configuration audit. It addresses 
the source code, software, hardware configuration, and 
documentation.
    The functional configuration audit addresses all testing. 
SysTest has created a test methodology incorporating physical 
and functional configuration audit-specific reviews and tests. 
Standard templates are customized for each unique voting 
system, but the overall process is always the same for every 
voting system.
    To have confidence in the voting system, one needs to have 
confidence in the testing. NASED qualification testing is the 
second level of four levels of testing identified by the Voting 
System Standards. The first level of testing is vendor testing. 
The vendor tests to the design requirements. The second level 
is qualification testing. The ITAs examine the vendor's testing 
for adequacy and completeness. We run a standard set of end-to-
end functional tests customized for the specific voting system 
to ensure that it meets the VSS. We also test for any 
additional functionality that is non-VSS required.
    Qualification testing means that the hardware, software, 
and all documentation of the voting system have been defined, 
reviewed, and tested for conformance with the requirements of 
the Voting System Standards. It means the voting system 
contains a method to create elections, provide a ballot, record 
votes, report tallies, and produce an audit trail. It means 
voting is secret, accurate, and reliable. It means all code 
used in testing has been reviewed by an ITA, and it means that 
the documentation required to help jurisdictions run elections 
is accurate and sufficient.
    The qualification testing does not mean that testing has 
been sufficient to confirm that voting systems meet the 
specific laws of all states, or for that matter, any State. 
This responsibility falls to the third level of testing, State 
certification. Qualification testing also does not mean that 
the voting system the vendor delivers is exactly the system 
that was qualified or certified. This aspect falls to the 
fourth level of testing, local acceptance testing.
    All four levels are essential to the voting process. We 
suggest that the 1990 Voting System Standard implementation 
plan be used as a baseline guide. While never fully 
implemented, it contains an excellent structure for issues 
associated with all levels of voting testing. Additionally, we 
recommend that the new EAC standards define specific reporting 
methodologies and poll worker usability, to assist the States 
and local jurisdiction to understand and use ITA qualification 
reports and voting systems themselves.
    To ensure confidence in testing, you have to have 
confidence in the test labs. Currently, environmental testing 
and all functional software and hardware testing of the polling 
place equipment is assigned to the hardware ITA. The functional 
testing of ballot preparation and the central count 
functionality, and then the integration of end-to-end testing 
is assigned to the software ITA.
    As technology has evolved, we feel this scope should be 
reexamined, because polling place software cannot be fully 
tested without integrating ballot preparation and counting 
software. Integration testing repeats much of the polling place 
functional testing. New voting systems today tend not to have 
separate applications that neatly divide these functions. 
Vendors must artificially divide code in order to conform to 
current lab assignments. Lastly, polling place issues that are 
found in end-to-end testing by a software ITA must go back to 
the hardware ITA for code review and functional testing. Then, 
the hardware ITA must send the code back to the software ITA to 
rerun their tests.
    The Subcommittee has asked us to provide suggestions for 
future accreditation of labs. We would suggest that the 
accrediting of primary labs responsible for all hardware and 
software testing. We would also suggest that primary labs may 
have qualified subcontractors to perform environmental testing, 
but they must demonstrate their ability to monitor all 
subcontractor work.
    Lastly, to ensure confidence in voting systems testing and 
labs, one must have confidence in the standards. Criticism of 
the 2002 standards generally is focused on security in terms of 
active attack code such as backdoors. When you look at security 
from a broader view, the requirements of the VSS are more 
comprehensive. Testing for accuracy and reliability helps 
secure the vote. Testing the functional requirements dealing 
with election creation, voting, counting, and auditing helps 
secure the vote. Documenting the processes to ensure physical 
security and detect intrusion help secure the vote.
    In terms of active attack code, the VSS supplies some 
detail, and there are some sections that provide very wide 
latitude to the labs. These sections give the individual labs a 
great deal of discretion, but it does not provide the detail 
consistency across all ITAs. The role of the ITA is to hold the 
vendor's feet to the fire, but it is not to build the fire. 
HAVA tasks the EAC in this to address this issue in the future.
    The Subcommittee has asked us to provide suggestions for 
changes to improve the process before the 2006 Election. The 
2002 VSS implementation plan has a process for issuing 
clarification bulletins. We would suggest a NASED, EAC, and 
NIST transition clarification bulletin addressing any 
significant issues.
    Thank you for the opportunity to speak here, and we thank 
you.
    [The prepared statement of Ms. Coggins follows:]

                Prepared Statement of Carolyn E. Coggins

    SysTest Labs is pleased to provide the Environment, Technology, and 
Standards Subcommittee with information about ITA (Independent Testing 
Authority) Qualification Testing of Voting Systems for the National 
Association of State Election Directors (NASED) to the Federal Election 
Commission (FEC) Voting System Standards (VSS).
    Three labs currently provide NASED Qualification Testing. All of 
the labs test to the VSS, but each has their own methods. Our comments 
here reflect the methods used by SysTest Labs.
    My discussion shall identify:

        <bullet>  SysTest Labs' qualifications and accreditation as an 
        ITA;

        <bullet>  The standards, in addition to the VSS, that govern 
        qualification testing;

        <bullet>  How the Voting System Qualification Test process is 
        defined in the VSS;

        <bullet>  How SysTest Labs implements the VSS Voting System 
        Qualification Test process;

        <bullet>  How SysTest Labs maintains quality and manage process 
        improvement; and

        <bullet>  Observations and recommendations regarding lab 
        accreditation, the VSS and qualification testing.

Accreditation as a NASED Qualification ITA

    SysTest Labs is full service laboratory specializing in all areas 
of software testing. Our work ranges from Independent Verification and 
Validation for software development efforts of State unemployment 
insurance systems to large and complex software laboratory testing for 
major telecommunication companies to web site performance testing for 
major retailers to software test staff augmentation. SysTest Labs has 
successfully completed over 500 software testing or quality assurance 
projects for over 250 clients worldwide. Regardless of the test effort, 
all aspects of our quality program, test methodology and test engineer 
training are guided by Institute of Electrical and Electronic Engineers 
(IEEE) standards and the SysTest Labs quality procedures.
    In order to become a software and hardware ITA, SysTest Labs had to 
apply to NASED and then be audited by the NASED Technical Committee. To 
my knowledge, we are the only lab that has sought and been awarded both 
software and hardware accreditation, to become a full service ITA. We 
initially applied and qualified as a software ITA in 2001. We recently 
granted acceptance as a hardware ITA. Our hardware ITA status is 
provisional, i.e., our audit was successfully completed, NASED has 
recommended accreditation and our initial hardware qualification test 
effort will be monitored by a NASED auditor.

Quality Program, Test Standards and Test Methods

    The NASED audit process requires that we provide documentation and 
demonstrate our quality program. In addition, we have had to provide 
documentation and demonstrate our test methodology and processes for 
NASED Qualification Testing of voting systems. While the requirements 
we test to are governed by the standards, we must define the method of 
testing and processes to ensure the consistency, adequacy, accuracy, 
and overall quality of our NASED Qualification Testing.
    While the 2002 Federal Election Commission Voting System Standard 
is the primary standard, there are a number of other standards used in 
our voting system testing. The VSS itself incorporates a number of 
other standards, which are included in NASED Qualification Testing (see 
Volume 1 Applicable Documents). The primary standards we use in NASED 
ITA Qualification Testing are:

    Federal Election Commission

        <bullet>  Federal Election Commission Voting System Standards, 
        Volume I Performance Standards and Volume II Test Standards, 
        April 2002.

    National Association of State Election Directors

        <bullet>  NASED Accreditation of Independent Testing 
        Authorities for Voting System Qualification Testing, NASED 
        Program Handbook NHDBK 9201, a National Association of State 
        Election Directors (NASED), May 1st, 1992.

        <bullet>  NASED Voting System Standards Board Technical Guide 
        #1, FEC VSS Volume I, Section 2.2.7.2, Color and Contrast 
        Adjustment

        <bullet>  NASED Voting System Standards Board Technical Guide 
        #2, Clarification of Requirements and Test Criteria for Multi-
        language Ballot Displays and Accessibility.

    Institute of Electrical and Electronics Engineers

        <bullet>  IEEE Standard for Software Quality Assurance Plans 
        IEEE STD 730-1998

        <bullet>  IEEE Standard for Software Configuration Management 
        Plans IEEE STD 828-1998

        <bullet>  IEEE Standard for Software Test Documentation IEEE 
        STD 829-1998

        <bullet>  IEEE Recommended Practice for Software Requirements 
        Specifications IEEE STD 830-1998

        <bullet>  IEEE Standard for Software Unit Testing IEEE STD 
        1008-1987

        <bullet>  IEEE Standard for Software Verification and 
        Validation IEEE STD 1012-1998.

    Federal Regulations

        <bullet>  Code of Federal Regulations, Title 20, Part 1910, 
        Occupational Safety and Health Act

        <bullet>  Code of Federal Regulations, Title 36, Part 1194, 
        Architectural and Transportation Barriers Compliance Board, 
        Electronic and Information Technology Standards--Final Rule

        <bullet>  Code of Federal Regulations, Title 47, Parts 15 and 
        18, Rules and Regulations of the Federal Communications 
        Commission

        <bullet>  Code of Federal Regulations, Title 47, Part 15, 
        ``Radio Frequency Devices,'' Subpart J, ``Computing Devices,'' 
        Rules and Regulations of the Federal Communications Commission.

    American National Standards Institute

        <bullet>  ANSI C63.4  Methods of Measurement of Radio-Noise 
        Emissions from Low-Voltage Electrical and Electronic Equipment 
        in the Range of 9Khz to 40 GHz

        <bullet>  ANSI C63.19  American National Standard for Methods 
        of Measurement of Compatibility between Wireless Communication 
        Devices and Hearing Aids.

    International Electro-technical Commission.

         Electromagnetic Compatibility (EMC) Part 4: Testing and 
        Measurement Techniques

                <bullet>  IEC 61000-4-2 (1995-01) Section 2 
                Electrostatic Discharge Immunity Test (Basic EMC 
                publication)

                <bullet>  IEC 61000-4-3 (1996) Section 3 Radiated 
                Radio-Frequency Electromagnetic Field Immunity Test

                <bullet>  IEC 61000-4-4 (1995-01) Section 4 Electrical 
                Fast Transient/Burst Immunity Test

                <bullet>  IEC 61000-4-5 (1995-02) Section 5 Surge 
                Immunity Test

                <bullet>  IEC 61000-4-6 (1996-04) Section 6 Immunity to 
                Conducted Disturbances Induced by Radio-Frequency 
                Fields

                <bullet>  IEC 61000-4-8 (1993-06) Section 8 Power-
                Frequency Magnetic Field Immunity Test. (Basic EMC 
                publication)

                <bullet>  IEC 61000-4-11 (1994-06) Section 11. Voltage 
                Dips, Short Interruptions and Voltage Variations 
                Immunity Tests.

         Electromagnetic compatibility (EMC) Part 5-7: Installation and 
        mitigation guidelines

                <bullet>  IEC 61000-5-7 Ed. 1.0 b: 2001 Degrees of 
                protection provided by enclosures against 
                electromagnetic disturbances.

    Military Standards

        <bullet>  MIL-STD-810D (2) Environmental Test Methods and 
        Engineering Guidelines.

NASED Qualification Testing of Voting Systems ITA Process

    SysTest Labs performs qualification testing in conformance with the 
two processes required in the 2002 VSS. The results from Qualification 
reviews and testing are documented throughout the process (ITA 
documentation of testing in red):

        <bullet>  Physical Configuration Audit (PCA in blue) addresses 
        the physical aspects of the voting system, including:

                  Review of the Technical Data Package (TDP) 
                documentation

                  Verification of the configuration of the hardware 
                and software

                  Identification of the code to review

                  Source Code review

                  Observing the building of the executable from the 
                reviewed source code.

        <bullet>  Functional Configuration Audit (FCA in green) 
        addresses the functional aspects of the voting system, 
        including:

                  Review of all testing performed by the vendor

                  Test planning

                  Test Case preparation and/or customization of 
                Standard Test Cases

                  Test execution.
                <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                

    While the VSS outlines the overall PCA and FCA process, SysTest 
Labs has defined specific processes for each area of testing or review 
to ensure a consistent, repeatable test methodology. These processes 
include specific review and test templates that have been prepared in 
conformance with the VSS, IEEE standards, NASED accreditation policies 
and SysTest Labs quality procedures. Each voting system is unique. 
While qualification testing must be customized for the unique 
requirements of each specific voting system, the overall process is 
exactly the same for every voting system.
    The VSS does not designate software and hardware ITA 
responsibilities. These responsibilities are assigned by NASED 
accreditation policies. The processes documented here note processes or 
test approaches that can be applied to either the software or hardware 
ITA.

        <bullet>  PCA Technical Data Package (TDP) Review: The TDP is 
        reviewed to confirm required documentation is present, conforms 
        in content/format and is sufficient to install, validate, 
        operate, maintain the voting system and establish the system 
        hardware baseline associated with the software baseline. 
        Results of the review are provided to the vendor in a Pre-
        qualification Report.

        <bullet>  PCA Source Code Review: The source code is reviewed 
        for:

                  Maintainability--including the naming, coding and 
                comment conventions, adherence to coding standards and 
                clear commenting.

                  Control Constructs--to determine the logic flow 
                utilizes standard constructions of the development 
                language, its used consistently, the logic structure 
                isn't overly complex and there's an acceptable use of 
                error handlers. Where possible automated tools are 
                used.

                  Modularity--confirming each module has a testable 
                single function, unique name, single entry/exit, 
                contains error handling and an acceptable module size.

                  Security and Integrity of the Code--including 
                controls to prevent deliberate or accidental attempts 
                to replace code such as unbounded arrays or strings, 
                including buffers to more data, pointer variables and 
                dynamic memory allocation and management; and other 
                security risks, such as hard coded passwords.

        <bullet>  PCA Test Environment: The Hardware and Software ITAs 
        document the setup of the voting system configuration to assure 
        a consistent test environment. The ITAs observe building of the 
        executable from reviewed source code. The Hardware and Software 
        ITAs work together to confirm that all testing is performed 
        only on ITA reviewed code built under ITA observation.

        <bullet>  FCA Test Documentation Review: The ITA reviews and 
        assesses prior testing performed by the vendor. Based upon the 
        assessment of vendor testing the ITA identifies scope; designs 
        testing; and creates the Qualification Test Plan.

        <bullet>  FCA Testing: Each ITA tests to their identified 
        scope, using their own internal processes.

                  Polling Place System Testing: The Hardware ITA 
                initiates environmental operating and non-operating 
                tests; functional testing of polling place hardware/
                software, and user manuals for all VSS-required and 
                optional vendor supported functionality; testing the 
                capability of the voting system to assist voters with 
                disabilities or language; and accuracy and reliability 
                testing.

                  Election Management System Testing: The Software ITA 
                initiates functional testing of the Ballot Preparation 
                and Central Count hardware/software, and user manuals 
                for all VSS-required and optional vendor supported 
                functionality.

                  System Level Testing: The Software ITA initiates 
                end-to-end testing of the integrated EMS and Polling 
                Place System, including testing of the system 
                capabilities and safeguards, claimed by the vendor in 
                its TDP.

Creating the Test Methodology and Maintaining Quality

    In structuring our review and test methodology we are guided by a 
continual quest to improve the process and quality. From the foundation 
of our first ITA project we have continually examined our methods. 
Through ten completed or active projects we have honed and revised our 
processes. Some changes have been based upon internal `lessons learned' 
and others have come from the external changes in the ITA process, such 
as the update to the 2002 VSS.
    The process we followed in creating and maintaining the NASED 
Qualification Testing was to define and document a review and test 
process for both management and test activities. This process needed to 
be standardized, repeatable and integrated into the overall structure 
for all SysTest Labs testing projects. Within this standard structure 
we tailored the individual methods to the unique requirements of 
software ITA qualification testing based upon the 1990 VSS. Processes 
addressed in this phase included VSS requirements management, test 
elements (plans, test cases, reviews and reports), test management, 
defect tracking, basic training, quality assurance, configuration 
management (vendor materials and our testing) and project management.
    Our next step was to work with and observe and improve the process 
through successive test efforts. In this phase we broadened our view to 
training needs, organizational coordination of the individual test 
tasks and peer reviews. With each effort we reworked some processes and 
identified other areas for potential process improvement.
    At the point the 2002 VSS was implemented, we had a solid structure 
and the perfect opportunity to implement several identified process 
improvements, in conjunction with a conversion to the new standards.
    While we continue to observe our processes, we are also moving into 
an optimization phase. In our expanded role as a hardware ITA we will 
be initiating some new processes that will follow our historic model, 
but will also look at some of our old processes and optimize them for 
an increased workload.

Observations and Recommendations for Lab Accreditation

    The majority of VSS requirements for qualification testing involve 
software. There are unique environmental tests that address hardware 
specifically, but the VSS requires that a portion of software testing 
for accuracy and reliability be performed in environmental chambers. In 
doing so there is an overlap. The most effective way to handle this 
overlap is to create a structure that permits joint testing of the 
hardware and software. NASED structured the scope of testing so that 
the hardware ITA was responsible for functional software and hardware 
testing on the polling place equipment and environmental testing of the 
hardware. The software ITA has been responsible for the ballot 
preparation and central count functionality along with integration 
testing of the entire system (end-to-end elections processes). While 
the software ITA does not review all the code, they must receive all of 
the code in order to perform end-to-end testing on the integrated 
system.
    We feel this scope should be changed due to the following issues:

        <bullet>  Polling place software cannot be fully tested without 
        integrating the entire voting system. Today's new voting system 
        vendors do not develop separate applications. In the majority 
        of systems we see, a vendor is forced to artificially divide 
        their code in order to give the polling place software to the 
        hardware ITA and the balance to the software ITA.

        <bullet>  The ITA labs try to keep duplication of effort down 
        to a minimum, however integration testing must repeat much of 
        the polling place functional testing.

        <bullet>  Vendors are required to return to the hardware ITA 
        for regression testing if issues are uncovered during 
        integration testing. If the software ITA uncovers an issue in 
        the polling place during integration testing, they must notify 
        the hardware ITA. While the software ITA must rerun their tests 
        with the new version of the code, the hardware ITA is 
        responsible for reviewing the code changes to fix the issue and 
        functionally testing to confirm the fix. In addition, there 
        have been times when ITA labs have an inconsistent 
        interpretation of the standards and a vendor's solution will 
        overlap between the hardware and software ITA.

        <bullet>  While environmental hardware testing requires 
        specialized equipment and testing, the environmental test 
        methodology is not unique to voting systems and generally does 
        not require specialized knowledge of voting. Furthermore, 
        effective software testing does require specialized knowledge 
        of voting practices.

    We recommend that accreditation of labs include the following:

        <bullet>  Primary labs that bear responsibility for all 
        testing, review and reporting. Primary labs may have qualified 
        subcontractors to perform specialized testing, e.g., hardware 
        environmental testing. The primary lab must demonstrate their 
        ability to monitor the work of the subcontractors and verify 
        that all subcontractor work reflects quality processes equal to 
        or greater than those of the primary lab;

        <bullet>  Validation of an understanding of the unique 
        functional requirements of voting systems and voting system 
        standards;

        <bullet>  Validation of manual and automated software testing 
        experience, methodology and software quality engineering 
        practices meet a minimum of CMMI Level 3; and

        <bullet>  Validation of test equipment and chambers sufficient 
        to perform all VSS defined environmental testing, as well as 
        environmental testing experience, methodology and quality 
        engineering practices.

Observations and Recommendations for Voting System Standards

    One hears much discussion on the adequacy of the 2002 FEC Voting 
System Standards with extensive criticism against the adequacy of 
security standards, but perhaps these critics are not taking a broad 
view of how the VSS addresses security. Basic functionality 
requirements, such as printing the name of an election and date on all 
reports, are an aspect of security. Voting system, accuracy and 
reliability are aspects of securing the vote. Any functional 
requirement of the VSS that deals with election creation, voting, 
counting or auditing is an aspect of securing the vote. The VSS 
requirement for a vendor to identify the weight of paper deals with the 
security of the vote. Additionally, the VSS requirements call for 
documentation of the process to ensure physical security of a voting 
system and the ability to detect intrusion. When looked at from this 
broad view, the requirements of the VSS are quite comprehensive.
    Criticism is generally is focused on the narrower view of security 
in terms of active attack code such as viruses, worms, Trojan horses, 
logic bombs, backdoors, exploitable vulnerabilities, and programming 
flaws. The VSS provides some detail here. There are also sections in 
the VSS that provide the labs with some wider latitude. In Volume 2 
Section 1.5 the VSS states ``Additionally, new threats may be 
identified that are not directly addressed by the Standards or the 
system. As new threats to a voting system are discovered, either during 
the system's operation or during the operation of other computer-based 
systems that use technologies comparable to those of another voting 
system, ITAs shall expand the tests used for system security to address 
the threats that are applicable to a particular design of voting 
system.'' A statement like this allows the individual lab a great deal 
of discretion in testing. What it does not do is provide the detail for 
consistency across all ITA testing.
    Is providing more detail being addressed? HAVA specifically 
identifies a review of the security and accessibility requirements of 
the VSS and creation of new voting standards by the EAC, with the 
support of NIST.
    Is there anything that can be done to enhance the VSS without 
waiting for the writing of new standards? Yes. The 2002 FEC Voting 
System Standards Implementation Plan identified a process for issuing 
clarification bulletins. This year NASED Voting System Standards Board 
Technical Guides 1 and 2 were issued with clarifications of two VSS 
requirements dealing with accessibility. Although NASED has a mechanism 
to issue clarifications, we are not aware if they have the physical or 
financial resources to meet this responsibility.
    In terms of the HAVA mandated review of the VSS to be performed by 
the EAC and NIST, we offer the following suggestions for greater 
guidance in the standards:

        <bullet>  Coding flaws--These may have security implications, 
        such as vulnerable constructs. Some languages and their 
        supporting libraries provide security vulnerabilities within 
        their functions. This can allow for a buffer overflow (which is 
        addressed in the VSS Volume 2 Section 5.4.2.d, ``For those 
        languages with unbound arrays, provides controls to prevent 
        writing beyond the array, string, or buffer boundaries'') or a 
        stack overflow attack. Additional, and potentially more 
        harmful, is the vulnerability to access the wrong program or 
        data file. This makes the program susceptible to the 
        introduction of external malicious code. We suggest providing 
        language specific prohibitions of vulnerable constructs. 
        Currently these vulnerable constructs can be used in programs 
        without malicious intent but it is difficult in a static review 
        to detect the security implication with their use.

        <bullet>  Race conditions--Synchronization issues, such as race 
        conditions, present security vulnerabilities. Automated code 
        checking tools can detect the potential for this situation but 
        typically detect a number of ``false positives.'' We suggest 
        guidance on the acceptability of race conditions within the 
        code.

        <bullet>  Global Variables--These variables are recognized 
        throughout the program and in some cases are used to store 
        critical status information that a number of programs need and 
        therefore provide a valuable service; however, their potential 
        for error and abuse should discourage their use. We suggest 
        guidance on when they can and cannot be used.

    We would also suggest that the standards include the following:

        <bullet>  Code Review Requirements for the vendors to provide 
        documentation identifying the known security weaknesses of the 
        programming language(s) they used, and their process for 
        mitigating those weaknesses.

        <bullet>  Requirements for the vendors to provide documentation 
        of their security practices. The standards need to also provide 
        the ITAs with guidance for the review of this documentation to 
        assure that security is incorporated into the vendor's 
        development process.

Observations and Recommendations for NASED ITA Qualification Testing

    The greatest challenge for NASED ITA Qualification Testing is the 
lack of understanding of what it is, what it is supposed to do, what it 
does not do and the role it should play in the entire election process.
    What is NASED ITA Qualification Testing? It is the second of four 
levels of testing identified in the VSS.

        <bullet>  Level 1 Vendor Testing: The vendor tests to ensure 
        that their system meets their design specifications, the 
        requirements of the VSS, and any specifically supported State 
        requirements.

        <bullet>  Level 2 NASED ITA Qualification Testing: The vendor's 
        testing is reviewed for adequacy and additional testing is 
        performed by software and hardware ITAs to ensure that the 
        voting system meets the requirements of the VSS, and any 
        additional functionality supported by the voting system as 
        defined in the vendor's design specifications performs as 
        specified.

        <bullet>  Level 3 State Certification Testing: State personnel 
        or contractors perform testing under the direction of the State 
        to ensure that the voting system meets all of the State's 
        requirements.

        <bullet>  Level 4 Acceptance Testing: Individual jurisdictions 
        perform testing prior to each primary or general election to 
        ensure that the voting system operates as required.

    What is the objective of NASED ITA Qualification Testing? The 
intent of qualification testing is to ensure that only voting systems 
that pass independent testing to the minimum requirements of the 2002 
FEC Voting System Standards are issued a NASED Qualification Numbers. 
This means:

        <bullet>  The elements of the voting system (hardware, 
        software, any required materials, and all documentation) have 
        been defined, reviewed and tested for conformance with the 
        requirements of the VSS;

        <bullet>  The voting system contains a method to successfully 
        create elections, provide a ballot, record votes, provide 
        report tallies, and produce an audit trail;

        <bullet>  Using the vendor's documented procedures and 
        mandatory security processes, ensuring that voting is performed 
        in a secret, accurate, reliable and secure manner;

        <bullet>  The source code has been reviewed and meets the 
        requirements for modularity, maintainability, consistency, 
        security, integrity, and the use of error handling;

        <bullet>  The code is sufficiently well commented so if the 
        vendor cease to support the code it can be reasonably 
        maintained by another entity;

        <bullet>  The code installed on the voting system for testing 
        was built from the source code reviewed by an ITA and witnessed 
        by an ITA;

        <bullet>  The Vendor's documents required by the VSS the 
        requirements for content and format;

        <bullet>  The Vendor documentation required to assist the 
        states and jurisdiction to configure, use and maintain the 
        voting system (hardware, software, other required materials and 
        documents) is accurate and sufficient to perform all supported 
        functions;

        <bullet>  Security has been achieved through the demonstration 
        of technical capabilities in conjunction with the documented 
        mandatory administrative procedures for effective system 
        security;

        <bullet>  Vendors have an established set of quality procedures 
        and have supplied evidence of their implementation through 
        development, internal testing, and ITA testing;

        <bullet>  The elements of the voting system configuration have 
        been identified, tested and tracked by the ITA;

        <bullet>  Upon completion of testing a report has been issued 
        to the NASED Technical Committee for peer review;

        <bullet>  The report has been accepted and retained by the 
        NASED Technical Committee/EAC, the vendor and the ITA.

        <bullet>  NASED issued a qualification number.

    What NASED ITA Qualification Testing does not mean:

        <bullet>  It does not mean that testing has been sufficient to 
        confirm a voting system meets the specific laws of all the 
        states or for that matter any state. There is much election 
        functionality in the VSS that is optional. The VSS only 
        requires that this work in terms of the vendor's own 
        requirements for a function. Taking an example to the extreme, 
        the VSS does not require a vendor to support primary or general 
        elections; these are both optional functions. A vendor must 
        support some sort of election, but the VSS allows the vendor to 
        specify exactly what they choose to support.

        <bullet>  It does not mean that the code the vendor delivers 
        installed on the voting system is exactly the code that was 
        qualified. It does not mean that the hardware that was 
        delivered by the vendor matches the qualified hardware 
        specification. While a version number may be the same, without 
        a verification methodology at the State and local level, it is 
        possible for unqualified versions to be used in an election.

        <bullet>  While security risks are significantly reduced, it 
        does not mean that the voting system does not require an 
        external audit process by the local jurisdiction for detection 
        and prevention of irregularities. The same stringent audit 
        processes jurisdictions apply should include the voting system.

    What role should NASED ITA Qualification Testing play in the 
election process?
    If one goes back to the implementation program for the 1990 Voting 
System Standards, one will see the direction that was originally 
intended. Qualification testing was just the first step. Additional 
phases were planned for State certification and local acceptance 
testing. There was a structure outlined for the accreditation of labs 
by NVLAP/NIST. The FEC was supposed to be a clearinghouse to make the 
reports available to State and local officials. Additionally, the 
States and local jurisdictions were encouraged to report their 
certification and acceptance testing to the clearinghouse. Escrow 
agents were envisioned to hold qualified versions of the code and 
assist the States and local jurisdictions in validation of qualified 
versions of code.
    For unknown reasons, the later phases were not implemented. NASED 
assumed the role for accreditation. No official clearinghouse or escrow 
was established. States and local jurisdictions moved forward 
independently. NASED informally provided a meeting place to exchange 
information. The job of holding the report and source code fell to the 
NASED ITAs. As the vendors and the ITAs had non-disclosure agreements, 
delivery of the report beyond the NASED Technical Committee was at the 
request of the vendor.
    While the vendor controls delivery of the report, it does not mean 
State and local officials do not have the right to see the report. The 
report is only confidential if the State certification or a local 
purchaser allows it to be a confidential. We receive instructions from 
the vendors to send their reports to State agencies.
    We would suggest that in going forward:

        <bullet>  The 1990 Implementation Plan shall be used as 
        guidance in completing the future structure of the 
        qualification, certification and acceptance testing of voting 
        systems. Whatever structure is implemented, it must minimally 
        address the functions outlined in this baseline plan;

        <bullet>  A risk and needs assessment be performed against the 
        roles outlined in the 1990 Implementation Plan to identify the 
        capabilities of the players to understand and perform their 
        roles;

        <bullet>  The needs of the State certification and local 
        jurisdictions for using, understanding and interpreting the 
        qualification report should be incorporated into the new 
        standards from the EAC. The standards should define any 
        specific reporting methodology to assist the States and local 
        jurisdiction in understanding the reports;

        <bullet>  An annually updated, centralized database of all 
        State specific voting requirements shall be made available to 
        the ITAs, vendors, and election officials.

                    Biography for Carolyn E. Coggins
    Director of ITA Voting Services and Senior Project Manager

    Carolyn Coggins has a BA in Economics from University of 
California, Berkeley. She heads up all voting projects at SysTest Labs 
and has signature authority for Independent Test Authority (ITA) Voting 
System recommendations to NASED (National Association of State Election 
Directors) for voting system approval. She serves as a ex-officio 
member of the NASED Technical Committee. In this capacity she provides 
technical assistance for NASED to the Election Assistance Commission 
(EAC), State election officials, and voting system vendors. Carolyn is 
the Chair of the Technical Data Package Special Task Group of the IEEE 
Project 1583 Voting Equipment Standards.
    On the voting system test efforts, her responsibilities include 
development and maintenance of the quality processes that defines all 
policies, procedures and templates required to perform ITA 
certification testing for voting systems, ITA certification test 
planning development, execution, and reporting, management of ITA 
testing resources, and interfacing with other ITA. She communicates and 
enforces the policies and procedures of SysTest Labs and NASED 
including Test Engineering best practices for the testing of voting 
systems. She oversees ITA daily testing and approves the reports 
generated in ITA test projects. Recently she managed the efforts 
associated with the expansion of SysTest Labs NASED accreditation to 
Full ITA status including both hardware and software. In addition, 
Carolyn had led several highly complex testing projects for 
telecommunications efforts, e-commerce efforts, large migration and 
conversion projects. She has been with SysTest Labs since 1998.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ehlers. Thank you. Dr. Shamos.

   STATEMENT OF DR. MICHAEL I. SHAMOS, PROFESSOR OF COMPUTER 
              SCIENCE, CARNEGIE MELLON UNIVERSITY

    Dr. Shamos. Mr. Chairman and Members of the Subcommittee, 
my undergraduate degree is in physics, and my first graduate 
degree is in physics, so whatever claim to omniscience that may 
entitle me to in this room, I gladly accept.
    I have been a faculty member in the School of Computer 
Science at Carnegie Mellon University since 1975. I am also an 
attorney admitted to practice in Pennsylvania and before the 
U.S. Patent and Trademark Office. From 1980 until 2000, I was 
statutory examiner of electronic voting systems for the 
Commonwealth of Pennsylvania. During those 20 years, I 
participated in every voting system examination conducted in 
that state. From 1987 until 2000, I was statutory examiner of 
computerized voting systems for the State of Texas, and during 
those 13 years, I participated in every voting system 
examination conducted in that state. All in all, I have 
personally examined over 100 different electronic voting 
systems.
    In my opinion, the system that we now have for testifying 
and certifying voting equipment in this country is not only 
broken, but is virtually nonexistent and must be recreated from 
scratch, or we are never going to restore public confidence in 
elections. The process of designing, implementing, 
manufacturing, certifying, selling, acquiring, storing, using, 
testing, and even discarding voting machines must be 
transparent from cradle to grave, and must adhere to strict 
performance and security guidelines that should be uniform for 
federal elections throughout the United States.
    The step of qualification is testing to determine whether a 
particular model of voting system meets appropriate national 
standards. Unfortunately, no adequate standards currently 
exist. The Federal Voting System Standards, FVSS, formerly 
known as the FEC standards, are not only incomplete and out of 
date, but there exists no effective procedure for even 
repairing them.
    Even if suitable standards existed, the current process of 
qualification testing by Independent Testing Authorities 
certified by NASED is not effective. As proof, I need only cite 
the fact that the voting systems about which security concerns 
have recently been raised in the popular press, such as Diebold 
Accuvote, were all ITA-qualified. Some of these systems 
contained security holes so glaring that one wonders what the 
ITA was doing when they were doing the testing.
    Well, one may wonder, but one cannot find out. The reason 
for that is that the ITA procedures are entirely opaque to the 
public. The NASED web site contains the following peremptory 
statement: ``The ITAs do not and will not respond to outside 
inquiries about the testing process for voting systems, nor 
will they answer questions related to a specific manufacturer 
or a specific voting system. They have neither the staff nor 
the time to explain the process to the public, the news media, 
or jurisdictions.'' By the way, the emphasis in that quotation 
was theirs, not mine. I emphasize the capitalized words from 
the NASED web site.
    The next step, after qualification, which is certification, 
the process that I participated in, certification to individual 
State requirements, is also flawed. Many states that formerly 
had statutory certification procedures have abdicated them in 
favor of requiring no more from a vendor than an ITA 
qualification letter, in some cases, even less. Alabama, for 
example, requires no certification at all, but relies on a 
written guarantee by the vendor that its system satisfies that 
State's statutory requirements. Mind you, these are 
requirements over which experts may differ as to their meaning. 
My own State, Pennsylvania, I am embarrassed to say, abandoned 
certification in the year 2002, because it believed the ITA 
process was sufficient. We are, therefore, less safe in 2004 
than we were 20 years ago, and possibly less safe than we even 
were in the year 2000.
    Even certified machines may not operate properly when 
delivered to a jurisdiction, and must undergo acceptance 
testing, but I am not aware of any State that makes such 
testing a statutory requirement. It may be recommended in the 
standards, and the ITAs may recommend it, but there is no body 
that actually forces the states to go through acceptance 
testing.
    So far, we have ignored the matter of where the software 
used in the machine actually comes from. It may have worked 
when delivered by the vendor, but may have been modified or 
substituted, either deliberately or innocently, by persons 
known or unknown. We need a central repository for election 
software, to which candidates and the public has continuing 
access, so that it may be known and verified exactly what 
software was used to present the ballot to the voter, and to 
tabulate a specific election.
    I was provided in advance with three questions to which I 
understand the Subcommittee desires answers. One related to the 
accreditation of testing laboratories, and whether that should 
be changed to ensure greater public confidence. I believe that 
there certainly is room for testing laboratories. I am not 
against the ITA process. I just think it needs to be revamped.
    Testing laboratories should be certified and rigorously 
monitored by the EAC, or such other national body as Congress 
may create. The cost of testing should be shouldered by the 
states on a pro rata basis, possibly out of HAVA funds. I don't 
believe that the laboratories should be paid by the vendors, 
which is the current method.
    In testing laboratories, we have faced the following 
paradoxical situation. It is bad to have just one, because 
there is no competition, but it is also bad to have more than 
one, and the reason that is bad is that if there are multiple 
laboratories, undoubtedly one of them will have the reputation 
of being the most lax, and that is the one that every vendor 
would like to have examining its equipment. So, I can't decide 
whether there ought to be one laboratory or multiple 
laboratories, except that if there are multiple laboratories, 
and the vendor has no participation in the decision as to which 
laboratory will be used to test his equipment, then we would 
have no conflict of interest.
    What can be done to improve these processes before the 2004 
election, and what needs to be done by 2006? Well, the answer 
to the first question is simple. I don't think there's anything 
one can meaningfully do in the next 130 days that remain before 
the 2004 election. Even if it were possible to enact 
legislation, the states would be powerless to comply in so 
short a time. The saving grace, though, is that the mere 
presence of security vulnerabilities in voting systems does not 
mean that actual security intrusions will occur. We have had a 
successful record of using DRE machines in the United States 
since the late '70's. We have had a nearly perfect record of 
using them in Pennsylvania since 1984. There has never been a 
single verified incident of actual manipulation of DRE voting 
results in this country. We may thank our lucky stars for that. 
It may be happenstance that that occurred, but nonetheless, 
there has been a tremendous hullabaloo raised over incidents 
that have never actually occurred.
    And how important is NIST's role in improving the way 
voting equipment is tested? I believe that NIST has an 
important role, but we are not just talking about simple 
electrical or mechanical specifications for equipment. We are 
talking about standards from beginning to end of the entire 
voting process, from where the machines come from, how they are 
deployed, how people are trained to use them, et cetera. And so 
I think NIST is part of the process, but the EAC, which has 
great election expertise, needs to be the primary force behind 
such processes.
    Thank you very much.
    [The prepared statement of Dr. Shamos follows:]
                Prepared Statement of Michael I. Shamos
    Mr. Chairman: My name is Michael Shamos. I have been a faculty 
member in the School of Computer Science at Carnegie Mellon University 
in Pittsburgh since 1975. I am also an attorney admitted to practice in 
Pennsylvania and before the United States Patent and Trademark Office. 
From 1980-2000 I was statutory examiner of electronic voting systems 
for the Secretary of the Commonwealth and participated in every 
electronic voting system examination held in Pennsylvania during those 
20 years. From 1987-2000 I was statutory examiner of electronic voting 
systems for the Attorney General of Texas and participated in every 
electronic voting system examination held in Texas during those 13 
years. In all, I have personally examined over 100 different electronic 
voting systems. The systems for which I have participated in 
certification were used to count more than 11 percent of the popular 
vote in the United States in the year 2000.
    I have not received any federal funding for my voting work.
    I am here today to offer my opinion that the system we have for 
testing and certifying voting equipment in this country is not only 
broken, but is virtually nonexistent. It must be re-created from 
scratch or we will never restore public confidence in elections. I 
believe that the process of designing, implementing, manufacturing, 
certifying, selling, acquiring, storing, using, testing and even 
discarding voting machines must be transparent from cradle to grave, 
and must adhere to strict performance and security guidelines that 
should be uniform for federal elections throughout the United States.
    There are a number of steps in the process of approving and using 
voting systems that must be distinguished. The process of 
``qualification'' is testing to determine whether a particular model of 
voting system meets appropriate national standards. Unfortunately, no 
such standards currently even exist. The Federal Voting System 
Standards (FVSS), formerly known as the FEC Standards, are incomplete 
and out of date.
    For example, one of the principal election security worries is the 
possibility of a computer virus infecting a voting system. Yet the FVSS 
place virus responsibility on the voting system vendor and do not 
provide for any testing by the Independent Testing Authority (ITA). 
Furthermore, the standards do not even require that a voting system 
contain any virus detection or virus removal software at all: ``Voting 
systems shall deploy protection against the many forms of threats to 
which they may be exposed such as file and macro viruses, worms, Trojan 
horses, and logic bombs. Vendors shall develop and document the 
procedures to be followed to ensure that such protection is maintained 
in a current status.'' It is hardly reassuring to have the fox 
guarantee the safety of the chickens.
    Even if there were suitable standards, it is a significant question 
how to assure the public that a particular machine meets them. The 
current process of qualification testing by Independent Testing 
Authorities certified by the National Association of State Election 
Directors (NASED) is dysfunctional. As proof I need only cite the fact 
that the voting systems about which security concerns have recently 
been raised, such as Diebold Accuvote, were all ITA-qualified. Some of 
these systems contain security holes so severe that one wonders what 
the ITA was looking for during its testing.
    One may wonder, but one cannot find out. The ITA procedures are 
entirely opaque. The NASED web site contains this peremptory statement: 
``The ITAs DO NOT and WILL NOT respond to outside inquiries about the 
testing process for voting systems, nor will they answer questions 
related to a specific manufacturer or a specific voting system. They 
have neither the staff nor the time to explain the process to the 
public, the news media or jurisdictions.'' I don't believe that either 
Congress of the public should allow ITAs to behave this way. Did I say 
``ITAs''? Allow me to correct that. For hardware testing, there is only 
a single NASED-certified ITA: Wyle laboratories of Huntsville, Alabama. 
I find it grotesque that an organization charged with such a heavy 
responsibility feels no obligation to explain to anyone what it is 
doing.
    It should be understood that qualification to standards addresses 
only one part of the problem. A qualified machine may not meet State 
statutory requirements even if it functions perfectly. A further 
examination, called certification, is needed to learn whether the 
machine can actually be used in a given state. Even a certified machine 
may fail to function when purchased unless it is tested thoroughly on 
delivery, a form of evaluation known as acceptance testing. I am not 
aware of any state that makes such testing a statutory requirement.
    Assuming that the machines operate properly when delivered, there 
is no assurance that they will be stored, maintained, transported or 
set up properly so they work on Election Day. While many states provide 
for pre-election testing of machines, in the event of a large-scale 
failure they can find themselves without enough working machines to 
conduct an election.
    The machines may work according to specification but if they have 
not been loaded with the appropriate set of ballot styles to be used in 
a polling place they will be completely ineffective. The process of 
verifying ballot styles is left to representatives of the political 
parties, who may have little interest in the correctness of non-
partisan races and issues.
    In this whole discussion we have ignored the matter of where the 
software used in the machine comes from. It may have worked when 
delivered by the vendor but may have been modified or substituted, 
either deliberately or innocently, by persons known or unknown. We need 
a central repository for election software to which candidates and the 
public has continuous access, so it may be known and verified exactly 
what software was used to present the ballot and tabulate the results.
    I was provided in advance with three question to which I understand 
the Subcommittee desires answers.

1.  How should the accreditation of testing laboratories and the 
testing and certification of voting equipment be changed to improve the 
quality of voting equipment and ensure greater trust and confidence in 
voting systems?

    Testing laboratories should be certified and rigorously monitored 
by the EAC, or such other national body as Congress may create. The 
cost of testing should be shouldered by the states on a pro-rata basis, 
possibly out of HAVA funds. The laboratories should certainly not be 
paid by the vendors, which is the current method.
    In testing laboratories we face the paradoxical situation that it 
is bad to have just one, but it is also bad to have more than one. A 
single laboratory has scant incentive to do a good job, but every 
incentive to please its customers, namely the vendors. If there are 
multiple laboratories, however, then some will acquire the reputation 
of being more lax than others, and the vendors will seek to have their 
system tested by the most ``friendly'' laboratory. This problem can be 
alleviated by monitoring the performance of the laboratories and 
according the vendors no role in their selection.
    The existence of federal standards and ITAs has actually had a 
counterproductive effect. Many states that formerly had statutory 
certification procedures have abdicated them in favor of requiring no 
more from a vendor than an ITA qualification letter, and in some cases 
even less. Alabama, for example, requires no certification at all but 
relies on a written guarantee by the vendor that its system satisfies 
the State's requirements. My own State, Pennsylvania, abandoned 
certification in 2002 because it believed the ITA process was 
sufficient. We are less safe in 2004 than we were 20 years ago.

2.  What can be done to improve these processes before the 2004 
election, and what needs to be done to finish these improvements by 
2006?

    I do not believe that Congress can act meaningfully in the 130 days 
that remain before the 2004 election. Even if it could, the states 
would be powerless to comply in so short a time. A saving race is that 
the mere presence of security vulnerabilities does not mean that 
tampering will or is likely to occur. We have been holding successful 
DRE elections in the U.S. for over 20 years. The problem this year is 
that many states, wishing to avoid the negative experience of Florida 
in 2000, have rushed to acquire new voting systems with which they are 
unfamiliar. This will undoubtedly lead to machine failures long lines, 
and dissatisfaction at the polls in November. It is not likely to lead 
to security intrusions. I should mention that since DREs were 
introduced in the late 1970s, there has not been a single verified 
incident of tampering with votes in such a system. There have been 
numerous allegations, all of which vanish into thin air when 
investigated. The most important factor right now in running a 
satisfactory election is training of the people who must operate the 
voting machines.
    For 2006 there are many actions that can be taken:

        <bullet>  The process of conducting elections in the U.S. is 
        highly fragmented. Election administration is left up to 3170 
        individual counties, except in a few states, such as Georgia, 
        which have statewide voting systems. This means that there is a 
        huge variance in elections budgets and level of expertise 
        across the country. The states should be encouraged through the 
        mechanism of HAVA to adopt systems and procedures that are as 
        uniform as possible within each state. The more different 
        voting systems a State operate, the more difficult it becomes 
        to keep track of the software and firmware that is used to run 
        them.

        <bullet>  No jurisdiction should be forced to deploy a new 
        voting mechanism before it is ready. The availability of large 
        amounts of HAVA funding has not been helpful in this regard. 
        The rush to rid the Nation of punched-card systems, while 
        generally laudable, has propelled counties having no experience 
        with DRE elections into errors whose consequences will take 
        years to overcome. A partial solution is gradual deployment and 
        transition to the newer systems rather than overnight 
        replacement.

        <bullet>  The need for voter and poll worker training cannot be 
        over-emphasized. The best and most secure voting machine will 
        not function properly if poll workers do not know how to 
        operate it and voters don't know how to use it.

        <bullet>  A comprehensive regime of qualification, 
        certification, acceptance and operational testing is needed.

        <bullet>  We need a coherent, up-to-date, rolling set of voting 
        system standards combined with a transparent, easily-understood 
        process for testing to them that is viewable by the public. We 
        don't have that or anything resembling that right now, and the 
        proposal I have heard are not calculated to install them.

        <bullet>  The means by which voting machines are modified, 
        updated and provided with ballot styles and software should be 
        tightly controlled, with meaningful criminal penalties for 
        violations. Right now, a vendor who distributes uncertified 
        software risks little more than adverse newspaper coverage.

3.  How important is NIST's role in improving the way voting equipment 
is tested? What activities should States be undertaking to ensure 
voting equipment works properly?

    I believe that NIST has an useful role to play in developing 
standards for voting system qualification, but it should not be a 
dominant one.
    NIST claims to have expertise in the voting process, and cites the 
fact that it has produced two published reports on the subject. The 
first of these, which appeared in 1975, was a ringing endorsement of 
punched-card voting, now recognized to be the worst method of voting 
ever devised by man. The second report, 13 years later, corrected that 
error. Both, however, were written by a single individual who is not 
longer with NIST. The NIST voting web site, vote.nist.gov, contains a 
table of 16 ``cyber security guidelines'' that NIST asserts are 
responsive to the risks of e-voting. These guidelines occupy more than 
2000 printed pages, yet the word ``voting'' appears nowhere within 
them.
    While it is true that stringent voting machines standards are 
required, the task of developing them should not be assigned to NIST 
merely because the word ``Standards'' is part of its name. For voting 
standards are unlike any other in that they must be capable of being 
understood and accepted by the entire public. An airline passenger may 
place his trust in the pilot to verify that the plane both are about to 
fly in has been properly maintained. The hospital patient relies on the 
doctor for assurance that equipment in the operating room will not kill 
him. The voter has no one to turn to if her vote is not counted and 
therefore must develop a personal opinion whether the system is to be 
trusted. Suspicion about the manner of making and testing voting 
machines harms everyone. Arcane technical standards make the problem 
worse.
    Having a successful, error-free and tamper-free election is not 
simply a matter of using a voting machine that obeys certain published 
criteria. Everything about the process, including the input of ballot 
styles, handling of vote retention devices, testing and subsequent 
audit must follow controlled protocols. If voting were done in a 
laboratory, it could be instrumented and observed carefully by 
engineers following precise procedures. However, voting is conducted 
using over one million volunteer poll workers, many of whom are senior 
citizens with scant computer experience. In fact, almost 1.5 percent of 
the U.S. voting population consists of poll workers themselves. The 
reality that elections are not run by engineers is an important 
consideration in the development and implementation of standards.
    In short, expertise in the process of voting and the human factors 
and fears that attend that process have not historically been within 
NIST's expertise. I do not doubt that NIST could acquire the necessary 
experience given sufficient time, money and mandate. But the Nation 
does not have that kind of time. A repeat of the Florida 2000 
experience will have a paralytic effect on U.S. elections.
    Instead, I propose that standards for the process of voting be 
developed on a completely open and public participatory basis to be 
supervised by the EAC, with input from NIST in the areas of its 
demonstrated expertise, such as cryptography and computer access 
control. Members of the public should be free to contribute ideas and 
criticism at any time and be assured that the standards body will 
evaluate and respond to them. When a problem arises that appears to 
require attention, the standards should be upgraded at the earliest 
opportunity consistent with sound practice. If this means that voting 
machines in the field need to be modified or re-tested, so be it. But 
the glacial pace of prior development of voting standards is no longer 
acceptable to the public.
    I may have painted a depressing picture of the state of voting 
assurance in the United States. That was my intention. However, I have 
a number of suggestions by which the process can be made to satisfy 
most of my concerns. In addition to the proposals presented above, I 
add the following:

        1.  There are too many organizations that appear to have 
        authoritative roles in the voting process, including the FEC, 
        NASED, the Election Center, NIST and the EAC. Most assert that 
        compliance with their recommendations is voluntary, and legally 
        it may be. But election officials abhor a vacuum, and the mere 
        existence of published standards, good or bad, is enough to 
        cause states to adopt them. A coherent scheme needs to be 
        devised, at least one that will assure that voting machines 
        work and are secure. I do not propose to sacrifice State 
        sovereignty over voting methods and procedures so long as they 
        are safe.

        2.  There is a Constitutional reluctance in the United States 
        to having the Federal Government control elections, even those 
        over which it may have authority to do so. I have long believed 
        that states must be left to determine the form of voting. 
        However, there is no contradiction in requiring that they obey 
        minimum standards necessary to ensure that all citizens have 
        their votes counted and moreover are confident that their votes 
        have been counted.

        3.  The reality is that states cannot assume the expense of 
        conducting multiple elections on the same day using different 
        equipment and procedures, so if standards are mandated for 
        elections involving federal offices they will almost certainly 
        be used for all elections.

        4.  The current pall that has been cast over computerized 
        voting in the U.S. can only be lifted through greater public 
        involvement in the entire process.

    I thank you for the opportunity to present testimony here today.

                    Biography for Michael I. Shamos
    Michael I. Shamos is Distinguished Career Professor in the School 
of Computer Science at Carnegie Mellon University, where he serves as 
Co-Director of the Institute for eCommerce, teaching courses in 
eCommerce technology, electronic payment systems and eCommerce law and 
regulation.
    Dr. Shamos holds seven university degrees in such fields as 
physics, computer science, technology of management and law. He has 
been associated with Carnegie Mellon since 1975.
    From 1980-2000 he was statutory examiner of computerized voting 
systems for the Secretary of the Commonwealth of Pennsylvania. From 
1987-2000 he was the Designee of the Attorney General of Texas for 
electronic voting certification. During that time he participated in 
every electronic voting examination conducted in those two states, 
involving over 100 different voting systems accounting for more than 11 
percent of the popular vote of the United States in the 2000 election.
    Dr. Shamos has been an expert witness in two recent lawsuits 
involving electronic voting: Wexler v. Lepore in Florida and Benavidez 
v. Shelley in California. He was the author in 1993 of ``Electronic 
Voting--Evaluating the Threat'' and in 2004 of ``Paper v. Electronic 
Voting Records--An Assessment,'' both of which were presented at the 
ACM Conference on Computers, Freedom & Privacy.
    Dr. Shamos has been an intellectual property attorney since 1981 
and has been an expert witness in Internet cases involving the Motion 
Picture Association of America and the Digital Millennium Copyright 
Act. He is Editor-in-Chief of the Journal of Privacy Technology, an 
all-digital publication of the Center for Privacy Technology at 
Carnegie Mellon.
    Further information is available at http://euro.ecom.cmu.edu/
shamos.html.

    Chairman Ehlers. Thank you very much, and Dr. Semerjian.

STATEMENT OF DR. HRATCH G. SEMERJIAN, ACTING DIRECTOR, NATIONAL 
          INSTITUTE OF STANDARDS AND TECHNOLOGY (NIST)

    Dr. Semerjian. Thank you, Mr. Chairman, and Members of the 
Committee. Thank you for the opportunity to testify today on 
NIST responsibilities under the Help America Vote Act, 
specifically on testing and certification of voting equipment.
    Clearly, major changes are taking place in the way we 
conduct elections. We are running into more and more optical 
scanners or touch screen systems, and as a result of these 
changes, Congress enacted the Help America Vote Act, commonly 
known as HAVA, and mandated specific roles for NIST.
    Many of the issues we are examining today are directly 
related to standards and guidelines. Congress understood the 
importance of standards in voting technologies, and 
specifically gave the Director of NIST the responsibility of 
chairing the Technical Guidelines Development Committee, 
otherwise known, TGDC, a Committee reporting to the Election 
Assistance Commission under HAVA. The TGDC is charged with 
making recommendations to the Election Assistance Commission 
with regard to voluntary standards and guidelines for election-
related technologies that have an impact on many of the issues 
we are discussing.
    While we have considerable experience in standards 
development, NIST understands that as a non-regulatory agency, 
our role is limited, and we need to understand the needs of the 
community. To this end, NIST staff have started to meet with 
members of the election community. Also, at the request of 
Congress and the National Association of State Election 
Directors, NIST organized and hosted a symposium on building 
trust and confidence in the voting systems last December. Over 
300 attendees from the election community were at the seminar 
to begin discussion, collaboration, and consensus building on 
voting reform issues.
    Mr. Chairman, at this time, I would like to enter a copy of 
the CDs that contain the video transcripts of the symposium 
into the record. Thank you.
    Chairman Ehlers. Without objection, so ordered.
    Dr. Semerjian. As required under HAVA, NIST recently 
delivered to the EAC a report which assesses the areas of human 
factors research and human-machine interaction, which feasibly 
could be applied to voting products and systems design to 
ensure the usability and accuracy of voting products and 
systems. The EAC delivered the report to Congress on April 30 
of this year. Again, the specific recommendations of the report 
are included in my written testimony.
    NIST views as a top priority accomplishing its 
responsibilities mandated in the HAVA legislation, in 
partnership with the EAC. These mandates include the 
recommendation of voluntary voting system standards to the EAC 
through its Technical Guidelines Development Committee. The 
first set of voluntary standards is due nine months after the 
appointment of the 14 members by the EAC. Last week, the EAC 
announced the membership of the TGDC, and their first meeting 
has been scheduled for July 9.
    Under HAVA, NIST is directed to offer formal accreditation 
to laboratories that test voting system hardware and software 
for conformance to the current voting system standards. 
Yesterday, NIST announced in the Federal Register the 
establishment of a laboratory accreditation program for voting 
systems. NIST will carry out the accreditation of these 
laboratories through the National Voluntary Laboratory 
Accreditation Program, otherwise known as NVLAP, which is 
administered by NIST.
    NVLAP is a long-established laboratory accreditation 
program that is recognized both nationally and internationally. 
NVLAP will also conduct a public workshop with interested 
laboratories in the near future to review its accreditation 
criteria, as well as receive comments and feedback from the 
participating laboratories and other interested parties. After 
the workshop, NVLAP will finalize specific technical criteria 
for testing laboratories and make the necessary logistical 
arrangements to begin the actual assessment of the 
laboratories. It is our intention that laboratories will be 
able to formally apply to NVLAP and initiate the assessment 
process in early 2005, if not sooner.
    Laboratories seeking accreditation to test voting system 
hardware and software will be required to meet the NVLAP 
criteria for accreditation, which include the ISO/IEC 17025 
standard, the 2002 Voting System Standards, and any other 
criteria deemed necessary by the Election Assistance 
Commission. To ensure continued compliance, all NVLAP 
accredited laboratories will undergo an onsite assessment 
before initial accreditation, during the first renewal year, 
and every two years thereafter to evaluate their ongoing 
compliance with specific accreditation criteria.
    Only after a laboratory has met all NVLAP criteria for 
accreditation will it be presented to the EAC for its approval 
to test voting systems. The EAC may impose requirements on the 
laboratories in addition to the NVLAP accreditation.
    Finally, NIST has compiled best security practices relevant 
to election security from current Federal Information 
Processing Standards, FIPS. These standards are available on 
both the NIST web site and the EAC web site. This compilation 
is intended to help State and local election officials with 
their efforts to better secure voting equipment before the 
November 2004 election.
    NIST realizes how important it is for voters to have trust 
and confidence in voting systems even as new technologies are 
introduced. Increasingly, computer technology touches all 
aspects of the voting process, voter registration, vote 
recording, and vote tallying. NIST believes that rigorous 
standards, guidelines, and testing procedures will enable U.S. 
industry to produce products that are high quality, reliable, 
interoperable, and secure, thus enabling the trust and 
confidence that citizens require, and at the same time, 
preserving room for innovation and change.
    Mr. Chairman, thank you for the opportunity to testify, and 
I will be happy to answer any questions.
    [The prepared statement of Dr. Semerjian follows:]

               Prepared Statement of Hratch G. Semerjian

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on NIST's responsibilities under the Help 
America Vote Act, specifically testing and certification of voting 
equipment. Major changes are taking place in the way we conduct 
elections. Our trusty old ballot boxes often are being replaced by a 
host of new technologies. Citizens are now much more likely to 
encounter optical scanners or touch screen systems at the polling place 
than a wooden box with a sturdy lock. As a result of these changes, 
Congress enacted the Help America Vote Act, commonly known as HAVA, and 
mandated specific research and development roles for the National 
Institute of Standards and Technology (NIST).
    Many of the issues we are examining today are all directly related 
to standards and guidelines. As we like to say at NIST, if you have a 
good standard, you can have a good specification, and with proper 
testing you will be assured that the equipment performs as required. 
Congress understood the importance of standards in voting technologies 
and specifically gave the Director of NIST the responsibility of 
chairing the Technical Guidelines Development Committee (TGDC), a 
committee reporting to the EAC under HAVA. This committee is charged 
with making recommendations to the Election Assistance Commission (EAC) 
with regard to voluntary standards and guidelines for election-related 
technologies that have an impact on many of the issues we are 
discussing.
    While we have considerable experience in ``standards development,'' 
NIST understands that as a non-regulatory agency our role is limited 
and has started to meet with members of the ``elections community,''--
ranging from disability advocacy groups, voting advocacy groups, 
researchers, State and local election officials, and vendors--to learn 
about their concerns. Ultimately, in coordination with the EAC and the 
broader ``elections community'' we want to apply our ``standards 
development'' experience to election-related technologies so that, when 
voting is complete, the vote tally will be accurate and done in a 
timely manner.
    NIST is by no means a newcomer to the issues related to electronic 
voting. Previous to the HAVA, NIST's involvement in studying voting 
machine technology resulted in the publication of two technical papers 
in 1975 and 1988. NIST's recent activities related to voting system 
technology have been preparatory to the implementation of HAVA and 
fulfilling the initial mandates of the law.
    At the request of Congress and the National Association of State 
Election Directors, NIST organized and hosted a Symposium on Building 
Trust and Confidence in Voting Systems in December of 2003 at its 
Gaithersburg headquarters. Over three hundred attendees from the 
election community attended the seminar to begin discussion, 
collaboration and consensus on voting reform issues. Symposium 
participants included State and local election officials; vendors of 
voting equipment and systems, academic researchers; representatives of 
the cyber security and privacy community; representatives from the 
disability community, standards organizations and independent testing 
authorities, as well as newly appointed U.S. Election Assistance 
Commissioners. Representative stakeholders participated with NIST 
scientists in panels addressing:

        <bullet>  Testability, Accreditation and Qualification in 
        Voting Systems;

        <bullet>  Security and Openness in Voting Systems; and

        <bullet>  Usability and Accessibility in Voting Systems.

    Attendees agreed that they all shared the goals of:

        <bullet>  Practical, secure elections, with every vote being 
        important;

        <bullet>  The importance of looking at the voting system end-
        to-end;

        <bullet>  The need for good procedures & best practices in 
        physical & cyber security;

        <bullet>  The need to improve current testing & certification 
        procedures;

        <bullet>  The need to separately address both short-term and 
        long-term challenges; and

        <bullet>  The benefits of the election community working as a 
        team.

    As required under HAVA, NIST recently delivered to the EAC a report 
``which assesses the areas of human factors research and human-machine 
interaction, which feasibly could be applied to voting products and 
systems design to ensure the usability of and accuracy of voting 
products and systems, including methods to improve access for 
individuals with disabilities (including blindness) and individuals 
with limited proficiency in the English Language and to reduce voter 
error and the number of spoiled ballots in elections.'' The EAC 
delivered the report to Congress on April 30, 2004.
    The report titled ``Improving the Usability and Accessibility of 
Voting Systems and Products,'' assesses human factors issues related to 
the process of a voter casting a ballot as he or she intends. The 
report's most important recommendation is for the development of a set 
of usability standards for voting systems that are performance-based. 
Performance-based standards address results rather than equipment 
design. Such standards would leave voting machine vendors free to 
develop a variety of innovative products if their systems work well 
from a usability and accessibility standpoint. Additionally, the report 
emphasizes developing the standards in a way that would allow 
independent testing laboratories to test systems to see if they conform 
to the usability standards. The labs would employ objective tests to 
decide if a particular product met the standards.
    In total the report makes 10 recommendations to help make voting 
systems and products simpler to use, more accurate and easily available 
to all individuals--including those with disabilities, language issues 
and other impediments to participating in an election. The 
recommendations highlight the need to:

         1)  Develop voting system standards for usability that are 
        performance-based, relatively independent of the voting 
        technology, and specific (i.e., precise).

         2)  Specify the complete set of user-related functional 
        requirements for voting products in the voting system 
        standards.

         3)  Avoid low-level design specifications and very general 
        specifications for usability.

         4)  Build a foundation of applied research for voting systems 
        and products to support the development of usability and 
        accessibility standards.

         5)  To address the removal of barriers to accessibility, the 
        requirements developed by the Access Board, the current VSS 
        (Voting System Standards), and the draft IEEE (Institute of 
        Electrical and Electronics Engineers) standards should be 
        reviewed, tested, and tailored to voting systems and then 
        considered for adoption as updated VSS standards. The 
        feasibility of addressing both self-contained, closed products 
        and open architecture products should also be considered.

         6)  Develop ballot design guidelines based on the most recent 
        research and experience of the visual design communities, 
        specifically for use by election officials and in ballot design 
        software.

         7)  Develop a set of guidelines for facility and equipment 
        layout; develop a set of design and usability testing 
        guidelines for vendor- and State-supplied documentation and 
        training materials.

         8)  Encourage vendors to incorporate a user-centered design 
        approach into their product design and development cycles 
        including formative (diagnostic) usability testing as part of 
        product development.

         9)  Develop a uniform set of procedures for testing the 
        conformance of voting products against the applicable 
        accessibility requirements.

        10)  Develop a valid, reliable, repeatable, and reproducible 
        process for usability conformance testing of voting products 
        against the standards described in recommendation 1) with 
        agreed upon usability pass/fail requirements.

    NIST views as a top priority accomplishing its impending 
responsibilities mandated in the HAVA in partnership with the EAC. 
These mandates include the recommendation of voluntary voting system 
standards to the EAC through its Technical Guidelines Development 
Committee. The first set of voluntary standards is due nine months 
after the appointment of the fourteen members by the EAC. Last week the 
EAC announced the membership of the TGDC. The first meeting of the TGDC 
has been scheduled for July 9, 2004.
    Under HAVA, NIST is directed to offer formal accreditation to 
laboratories that test voting system hardware and software for 
conformance to the current Voting System Standards. This week, NIST is 
announcing in the Federal Register the establishment of a Laboratory 
Accreditation Program for Voting Systems. NIST will carry out the 
accreditation of these laboratories through the National Voluntary 
Laboratory Accreditation Program (NVLAP), which is administered by 
NIST. NVLAP is a long-established laboratory accreditation program that 
is recognized both nationally and internationally. NVLAP accreditation 
criteria are codified in the Code of Federal Regulations (CFR, Title 
15, Part 285).
    NVLAP will conduct a public workshop with interested laboratories 
in the near future to review its accreditation criteria, as well as 
receive comments and feedback from the participating laboratories and 
other interested parties. After the workshop, NVLAP will finalize 
specific technical criteria for testing laboratories and make the 
necessary logistical arrangements to begin the actual assessment of the 
laboratories. NVLAP must identify, contract, and train technical expert 
assessors; laboratories must complete the NVLAP application process; 
rigorous on-site assessments must be conducted; and laboratories 
undergoing assessment must resolve any identified non-conformities 
before accreditation can be granted. It is our intention that 
laboratories will be able to formally apply to NVLAP and initiate the 
assessment process in early 2005 if not sooner.
    Simply stated, laboratory accreditation is formal recognition that 
a laboratory is competent to carry out specific tests. Expert technical 
assessors conduct a thorough evaluation of all aspects of laboratory 
operation that affect the production of test data, using recognized 
criteria and procedures. General criteria are based on the 
international standard ISO/IEC 17025, General requirements for the 
competence of testing and calibration laboratories, which is used for 
evaluating laboratories throughout the world. Laboratory accreditation 
bodies use this standard specifically to assess factors relevant to a 
laboratory's ability to produce precise, accurate test data, including 
the technical competency of staff, validity and appropriateness of test 
methods, testing and quality assurance of test and calibration data. 
Laboratory accreditation programs usually also specify field-specific 
technical criteria that laboratories must meet, in addition to 
demonstrating general technical competence.
    Laboratory accreditation thus provides a means of evaluating the 
competence of laboratories to perform specific types of testing, 
measurement and calibration. It also allows a laboratory to determine 
whether it is performing its work correctly and to appropriate 
standards.
    Laboratories seeking accreditation to test voting system hardware 
and software will be required to meet the NVLAP criteria for 
accreditation which include: ISO/IEC 17025, the 2002 Voting System 
Standards, and any other criteria deemed necessary by the Election 
Assistance Commission (EAC). To ensure continued compliance, all NVLAP-
accredited laboratories undergo an on-site assessment before initial 
accreditation, during the first renewal year, and every two years 
thereafter to evaluate their ongoing compliance with specific 
accreditation criteria.
    Only after a laboratory has met all NVLAP criteria for 
accreditation will it be presented to the Election Assistance 
Commission for its approval to test voting systems. The EAC may impose 
requirements on the laboratories in addition to NVLAP accreditation.
    Finally, NIST has compiled best security practices relevant to 
election security from current Federal Information Processing standards 
(FIPS). These standards are available on the NIST web site (http://
vote.nist.gov/securityrisk.pdf) and will be available on EAC's web site 
(http://www.fec.gov/pages/vssfinal/vss.html). This compilation is 
intended to help State and local election officials with their efforts 
to better secure voting equipment before the November 2004 election.
    NIST realizes how important it is for voters to have trust and 
confidence in voting systems even as new technologies are introduced. 
Increasingly, computer technology touches all aspects of the voting 
process--voter registration, vote recording, and vote tallying. NIST 
believes that rigorous standards, guidelines, and testing procedures 
will enable U.S. industry to produce products that are high quality, 
reliable, inter-operable, and secure thus enabling the trust and 
confidence that citizens require and at the same time preserving room 
for innovation and change.
    Thank you for the opportunity to testify. I would be happy to 
answer any questions the Committee might have.

                   Biography for Hratch G. Semerjian

    Hratch G. Semerjian is serving as Acting Director of NIST while 
Arden Bement serves in a temporary capacity as the Acting Director of 
the National Science Foundation. Dr. Semerjian has served as the Deputy 
Director of NIST since July 2003. In this position, Dr. Semerjian is 
responsible for overall operation of the Institute, effectiveness of 
NIST's technical programs, and for interactions with international 
organizations. NIST has a total budget of about $771 million, and a 
permanent staff of about 3,000, as well as about 1,600 guest 
researchers from industry, academia, and other national metrology 
institutes from more than 40 countries. Most of the NIST researchers 
are located in two major campuses in Gaithersburg, Md., and Boulder, 
Colo. NIST also has two joint research institutes; the oldest of these 
is JILA, a collaborative research program with the University of 
Colorado at Boulder, and the other is CARB (Center for Advanced 
Research in Biotechnology), a partnership with the University of 
Maryland Biotechnology Institute.
    Dr. Semerjian received his M.Sc. (1968) and Ph.D. (1972) degrees in 
engineering from Brown University. He served as a lecturer and post 
doctoral research fellow in the Chemistry Department at the University 
of Toronto. He then joined the research staff of Pratt & Whitney 
Aircraft Division of United Technologies Corp. in East Hartford, Conn. 
In 1977, Dr. Semerjian joined the National Bureau of Standards (now 
NIST), where he served as Director of the Chemical Science and 
Technology Laboratory (CSTL) from April 1992 through July 2003. Awards 
he has received include the Fulbright Fellowship, C.B. Keen Fellowship 
at Brown, the U.S. Department of Commerce Meritorious Federal Service 
(Silver Medal) Award in 1984, and the U.S. Department of Commerce 
Distinguished Achievement in Federal Service (Gold Medal) Award in 
1995. In 1996, he was elected a Fellow of the American Society of 
Mechanical Engineers. In 1997, he received the Brown Engineering Alumni 
Medal. Dr. Semerjian was elected to the National Academy of Engineering 
in 2000.

                               Discussion

    Chairman Ehlers. Thank you very much, and thank all of you 
for your testimony. We will now begin with the questioning, and 
I yield myself five minutes for that purpose.

     Election Management Best Practices and Acceptance Testing of 
                            Voting Equipment

    A couple of things, first of all. We are concerned about 
the initial testing of the equipment and the software. We want 
to make sure that it meets the design criteria, specifications, 
that it works as it is intended to work. The second aspect is 
to preserve that as time goes on, and ensure that it continues 
to operate properly. Let me just, for my own information, ask a 
question about that. Perhaps Mr. Wilkey would be the one to 
answer. Others may want to comment.
    On the newer electronic machines, do the manufacturers 
provide some type of self-test routine that you run the 
computers through before each election? In other words, you 
insert this in, it runs through, checks the software, and makes 
sure it is doing what it is supposed to do, that no one has 
tinkered with it? Is that standard or is that just not done at 
all?
    Mr. Wilkey. Mr. Chairman, thank you for asking that 
question, because it gives me an opportunity to talk about 
something that I have been on my soapbox for over 15 years, and 
now, as a private citizen, it may be the last time I have a 
chance to talk about it publicly.
    Certainly, what we have tried to do in the area of 
standards development and testing of an initial product is only 
50 percent of the battle.
    Chairman Ehlers. Yeah.
    Mr. Wilkey. The next 50 percent, and perhaps even the most 
important part of what we are talking about, is what needs to 
happen once the product is delivered to the jurisdiction. And 
that is where we have consistently talked about doing 
acceptance testing of a quality that is developed by the 
jurisdiction and not the vendor, is done by the jurisdiction 
and not the vendor, and similarly, all of the maintenance 
activities and the pre-election testing that must occur, 
ongoing, throughout the process.
    One of our biggest problems in election administration in 
this country is that there are over 13,000 election 
jurisdictions. Many of them, as you know, Mr. Chairman, in your 
own State, and in mine, are very small. They are mom and pop 
operations with the county clerk that may have a number of 
responsibilities, or a town clerk, if you are talking about the 
New England states. They don't have the expertise always 
available to them to do this, so on many occasions, they are 
relying on the vendor to do this.
    This is a practice that we are trying to stop, and what we 
are hopeful, with the new Election Assistance Commission, that 
they will get the necessary funding to be able to do what I 
have talked about for the last 15 years, and that is the 
management operational standards, that--it is a huge project. 
But it needs to be done, because jurisdictions need to be able 
to go some place to say I have bought this system. This is how 
I do an adequate test. This is how I develop the test. This is 
how I do ongoing maintenance. This is the kind of maintenance 
logs I have to keep, and on and on and on. Because it is only 
that 50 percent of the battle that we are seeing in the news 
media today.
    And another part of our problem, which I think the EAC 
hopefully will address, and which the Chairman has addressed 
already in his remarks a couple of weeks ago, is that we keep 
hearing there are problems out there across America with these 
systems. One of the things that we are not able to determine is 
how many of these units are out there, and how many of these 
units have problems, and what are these problems?
    Hopefully, and the Chairman of the Commission, Chairman 
Soaries, has called on every election jurisdiction in the 
country to report to the EAC the problems that they are having 
with their equipment, so that we can begin to see what is going 
on, and we can see a pattern, and that the TGDC can begin to 
take a look at the problems, then, and try to prevent them from 
happening in the future.
    So, thank you, Mr. Chairman. I am glad you asked that 
question.
    Chairman Ehlers. Well----
    Mr. Wilkey. Because it is very important.
    Chairman Ehlers. And my point simply was, it seems to me 
because there are a lot of mom and pop operations, and I am 
very familiar with that, that we should expect the 
manufacturers to provide the testing software and materials to 
test--at least test the software that is on the machine. The 
county clerk or the township clerk can do--can set up 10 
machines and run a quick fake election with employees, and make 
sure that it works, to really make sure it hasn't been tinkered 
with.
    Mr. Wilkey. Yes, I agree, Mr. Chairman, and one of the 
things we encourage everybody to do, one of the projects that 
is going on right now at the EAC, and which I have been 
involved in, is to do a series of best practices that will be 
out and available to election jurisdictions over the next 
several weeks.
    And through this project, jurisdictions will be able to go 
to the EAC web site and take a look at some examples of tests 
that should be done on various equipment. I think it is good 
for the vendor to provide this information to the jurisdiction, 
but I think the jurisdiction has to go beyond that.
    Chairman Ehlers. Yeah.
    Mr. Wilkey. And so if a vendor says you have got to test 
this, this, and this, the jurisdiction should be taking and say 
yes, we are going to test this, this, and this, but we are 
going to do it four times.
    Chairman Ehlers. Dr. Shamos, I thought I saw you indicating 
a twitch when I asked the question.
    Dr. Shamos. Yes, you did, Mr. Chairman.
    The processes that we are talking about here are much more 
out of control than anyone is willing to admit. There are 
essentially no controls on how software enters a voting machine 
these days.
    We know how it gets there when the machine is sold. 
However, it is often necessary for the vendor to fix bugs, add 
new features, make customizations that are specifically 
requested by the jurisdiction. There may be statutes that 
require them to submit that software for recertification, but 
there is nothing that physically prevents them from putting a 
chip into a FedEx envelope and sending it directly to the 
county clerk, with instructions to install this chip, whose 
contents they have no knowledge of, into a voting machine.
    And the problem, of course, is exacerbated by the fact that 
we have over 3,100 counties in the country, so essentially, 
3,100 different elections, and that is another place where the 
degree of sophistication or lack of it comes into play. They 
are simply not equipped to know what to do to test this new 
thing. Now, the idea that the vendor would be able to supply 
testing software whose specific purpose is to reveal flaws in 
the activities of the vendor doesn't seem to be a stable 
situation to me.
    There are certain kinds of tests that one naturally 
performs, is the processor operating? Are the lights on the 
panel operating, et cetera. But if the allegation that has been 
made by security specialists is rational, that a vendor could 
himself introduce malicious code, or code designed to influence 
the outcome of an election, then we certainly can't rely on the 
vendor's testing protocols to reveal that.
    And so, I believe there have to be nationwide standards 
that apply, otherwise we are going to run into an equal 
protection issue, that a voter in one state will not be 
accorded the same degree of--literal protection against having 
his vote tampered with than a voter in another state.
    Chairman Ehlers. Ms. Coggins.
    Ms. Coggins. I would concur.
    Currently, the voting system standards do actually have an 
operational test that must be performed, and the labs have to 
test for that. But at this point, there is no standard that 
tells a jurisdiction how do you go and do this validation? How 
can you check to see that the code you have matches the code 
that was qualified by the lab, or is certified by your state?
    I would suggest that actually, as Dr. Shamos has added that 
into the standards. The whole process is jurisdictions are not 
exempt from audit, and that audit is not--just because the 
voting system has been tested, it doesn't mean that you still 
don't have to run the same kind of manual audits that you ran 
against your registration system.
    It is not yes, you have a computer system, but you know, 
test, but verify. I mean, that is--trust, but verify, sorry.
    Chairman Ehlers. And test, as well.
    Ms. Coggins. Yeah. That is right. And also, just in terms 
of the clearinghouse role, you know, that was part of the 
original intent of the 1990 implementation plan, that there was 
a clearinghouse where all of this information could be reported 
back on, on this anecdotal information. If the EAC could 
somehow have a reporting mechanism, where you can go online and 
you can, as a local jurisdiction, you can type into a database, 
and the form is set up in a way that it is--a software 
reporting, defect reporting, something along those lines, where 
it is structured, where you can really guide people, okay, here 
is the information we need you to get. I would also suggest 
that, in terms of the overall end-to-end process of education 
for elections, you look at putting something out there that can 
help local jurisdictions report back to this clearinghouse.
    Chairman Ehlers. Thank you all, and I--my time has expired. 
I will now yield to the gentleman from Colorado, Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman. I want to thank the 
panel as I begin. It was very helpful. As you all know, I think 
you raised more questions than you answered, but that is the 
purpose of having a hearing.

    Should All Computer-based Voting Equipment Be Required to Have 
                             a Paper Trail?

    If I could direct a question to Dr. Shamos, I think this 
maybe gets at one of the questions we all ask ourselves, 
particularly given what Congressman Holt had to say. There are 
a number of computer experts that strongly recommend that all 
computer-based equipment have a paper ballot trail. You alluded 
to this. Congressman Holt alluded to it.
    What are your views on this recommendation?
    Dr. Shamos. Congressman, there are already requirements in 
place for DRE machines in certain states to have paper audit 
trails. These are not the so-called voter verifiable audit 
trails, but they are a continuous roll of paper that records a 
complete ballot image of every vote cast, and in fact, I 
haven't recommended certification of any DRE system that didn't 
possess such a capability.
    We are talking about the voter verified paper trail, the 
one that produces a piece of paper that the voter may see, so 
that he can verify that his vote has--corresponds to the 
buttons that were pressed, or whatever actions had to be taken. 
And the idea is that that voter verified ballot is not taken 
away from the voting booth with the voter, but is deposited in 
a secure receptacle within the machine, so it is available for 
some process later on, whether that is an audit, or a recount, 
or some other activity associated with an election contest.
    I don't have anything against paper in general. The problem 
that I have with those proposals, and particularly, that single 
sentence in Representative Holt's bill, is the sentence that 
says that the paper record shall be the official one, and that 
it shall take precedence over the electronic record. The reason 
I take issue with it is that this country has a very long and 
sorry history of vote tampering, and that vote tampering has 
almost exclusively been conducted through the use of physical 
ballots, whether they were ordinary paper ballots, punched 
cards, mark-sense, or otherwise.
    The New York Times, which has recently been so fond of 
supporting the concept of a paper trail, has published over 
4,700 articles during its history on vote tampering around the 
United States with paper ballots. And those 4,700 articles date 
back to 1852, and if you do the division, it is that the New 
York Times has published such an article on an average once 
every 12 days since it began publishing in 1851, it has decried 
the use of paper ballots as a way of recording votes. Yet in 
2004, when nothing had changed, the New York Times decided 
suddenly that paper was the right mechanism.
    What has not occurred here, and what the computer 
specialists who recommend paper trails have not done, is to do 
a security comparison between the security vulnerabilities of 
DRE systems and the security vulnerabilities of paper. If, on 
balance, paper is safer, then that is the system we should be 
using. But it is the reason we don't use paper. The Kolth, or 
lever machines, beginning in the 1890's, which led in 1925 to 
New York adopting lever machines, was specifically to combat 
chicanery with paper ballots.
    So once the paper ballot becomes the official one, anybody 
who has any mechanical capability at all is able to fiddle with 
paper ballots, but they can't fiddle with properly secured 
cryptographically encoded electronic records. That is why I am 
not in favor of them becoming official.
    Mr. Udall. You may be very popular around here, because 
there are certainly a lot of people who look for instances in 
which the New York Times contradicts itself.
    Chairman Ehlers. They are not that hard to find, actually.
    Mr. Udall. So in effect, you are saying there are those 
that hear all of the arguments about DREs and the problems who 
might say why don't we just say to ourselves, look, technology 
isn't the answer to everything. Let us just go back to paper 
ballots, because they are verifiable. They are in your hand. 
There is no hidden software, but you point out that that, 
although on the surface, may seem like a viable option, it has 
its own problems, and fraught with its own history.
    Dr. Shamos. I have asked those experts personally. I said 
tell me, make a list of problems that you believe that paper 
trails are intended to solve, and then demonstrate to me the 
way in which the paper trail solves the problem, and they are 
unable to do it with a single exception, and I will give them 
this, that when the voter goes into the voting booth, she wants 
to be sure that her choices have been properly understood by 
the machine. She needs some feedback that says that. The paper, 
the piece of paper does, indeed, provide that feedback. There 
are numerous other ways of providing it that are completely 
electronic, but the paper does it. The fallacy is in believing 
that once that piece of paper is cut off and drops into a 
receptacle, that it will be around for a recount, that it will 
not have been modified. It will not have been deleted. It will 
not have been augmented. There is no, absolutely no assurance 
that those things will not happen. So, they solve, of the top 
10 problems with DREs, it is possible that paper trails solve 
one.
    Mr. Udall. I see my time has expired. I do fall back to 
some extent on an ATM analogy. I know, at least it is my habit. 
I deposit some money, or I remove some money, and I get a 
little paper receipt, and I stick it in my wallet, and carry it 
along with me, and sometimes I check, and sometimes I don't, to 
see if that it is, in fact, what has been recorded in my 
savings or checking account.
    Dr. Shamos. Well, I am glad you raised that analogy, 
because if you read Reg E of the Federal Reserve Board, which 
requires such paper receipts from ATMs, you will find that the 
paper receipt is not the official record of the transaction. 
All it is is a piece of evidence, and if there is a discrepancy 
between the electronic record and the piece of paper, that is 
the starting point for the bank's investigation. It is not the 
endpoint, and I believe it should be exactly the same with 
voting systems. If there is a discrepancy between the paper 
audit trail and the electronic record, that is where we start 
looking, and we do a forensic examination to see who did the 
tampering. We don't simply take the paper record and say, that 
is it. We don't have to look at the electronics any more, 
because all that means is we are simply returning to hand-
counted paper ballots.
    Mr. Udall. Thank you.
    Chairman Ehlers. If I may just interject here, I assume you 
would agree with my statement to Mr. Holt that it would not be 
too much trouble to program the computer to store one record 
that is different from the one that is printed out.
    Dr. Shamos. Oh, one can certainly program a computer to do 
that.
    Chairman Ehlers. Yes.
    Dr. Shamos. However, I don't agree that it would be 
possible to do that in such a way that it would not be detected 
during testing, qualification----
    Chairman Ehlers. Yes. Yes. Right. I agree. Next, I am 
pleased to yield to Mr. Gutknecht, my friend from Minnesota.
    Mr. Gutknecht. Well, thank you, Mr. Chairman, and I want to 
thank the distinguished panel today. I appreciate the 
testimony.
    I am still sort of torn on this whole issue, because I 
guess there are sins of omission, there are sins of commission, 
and I am not sure how many problems we have with various voting 
machines, but I do believe we in the United States and, 
frankly, even in my own State, on occasion, have problems with 
people who would try to alter the outcome.
    In fact, in my own district, we had a very disputed State 
senate election last time. We--and it was paper ballots, and 
you could say we had an audit trail, and in one of the most 
disputed precincts, one of the election judges inexplicably 
took a bunch of ballots home and burned them in her fireplace.
    Dr. Shamos. It must have been cold.

                 Technologies for Reducing Voter Fraud

    Mr. Gutknecht. It was cold. It was Minnesota, and it was 
November, December, by the time they got to this. But I guess 
what I really, and maybe this is a question for the folks from 
NIST. It seems to me if we are going to get serious about 
really cleaning up the elections, we have to do something to 
make certain that the people who are actually voting are the 
people that say that they are. In other words, most of the 
examples, I think, where we have had what I would describe as 
voter fraud is where people who were not eligible to vote 
voted, and where people may have voted in more than one 
precinct, and unfortunately, I think that has been happening 
more than most people would like to admit.
    And so far, we have talked an awful lot today about, you 
know, voting machines and making certain that they tabulate 
correctly, and that the voters' wishes are expressed, but I 
guess the question I would have is how do you ultimately, as 
Mark Twain once observed, you know, we as politician's are 
America's only native criminal class, and so there is always 
this temptation to figure out ways to tweak the system to 
somebody's advantage, and I really have been less concerned 
about the tabulation by the machine than I have what some of 
the political machines might do to try and change the outcome 
illegally.
    And have you worked at all on trying to tie those ends 
together?
    Dr. Semerjian. We have not, so far, but I think that will 
be probably one of the major agenda items for the TGDC, in 
terms of how do you assure that the person who presents himself 
or herself there is the person, and then, how do you--I mean, 
we have a lot of different technologies.
    Mr. Gutknecht. Right.
    Dr. Semerjian. Some of them are being used today, with you 
know, some of the magnetic cards that they give you, based on 
your presentation of an ID, so I think the technologies are 
there. The issue is how are they implemented locally, and a lot 
of the uncertainties probably come from local implementation of 
these issues. So, frankly, TGDC and the EAC can provide 
guidelines, standards, for all those issues, but these are, 
after all, voluntary standards. They will be voluntary 
standards, so it will be up to the local jurisdictions to 
decide how far they go.
    Mr. Gutknecht. Well, I thought for a long time, there ought 
to be a way that when someone votes, that they leave a 
fingerprint, and the technology is relatively simple on 
biometrics. I mean, I say that relatively, but--and more 
importantly, it is not that expensive nowadays to really 
confirm that, you know, that person is who they say they are, 
but more importantly, that they haven't voted anywhere else 
that day. And I really think that NIST could be helpful in 
perhaps bringing some of that technology together, and at least 
demonstrating to local election officials that this is 
available now, and yes, we could do all we can to make certain 
that the technology that we are using is accurate, but at the 
end of the day, you know, the other side of that equation is we 
have got to make certain that the people who are voting are 
eligible to vote, and that they haven't voted more than once.
    Dr. Semerjian. Well, I wouldn't have agreed with you three 
years ago, but today, certainly, the technology is there, 
because of the visa, you know, entry, and that technology is 
certainly available. But there are, of course, philosophical 
issues. Not everybody is--we don't have everybody's 
fingerprint, and how would that be accepted in the community as 
a whole? And whether the costs of implementing a system like 
that in all of the jurisdictions would be acceptable.
    I don't think that is a technology issue.
    Mr. Gutknecht. Correct.
    Dr. Semerjian. I think it is an implementation issue, cost 
issue, and some philosophical issues, whether we will require 
the whole country to have, basically, a fingerprint of every 
eligible voter.
    Mr. Gutknecht. Well, I think if we wait until we have a 
complete consensus, we will never move on any kind of a 
universal system, so that we do have that kind of technological 
guarantee. And that is where I think NIST can play an important 
role, as we begin to say to communities and States, look, this 
stuff exists, and it can be integrated. Now, it may not happen 
overnight, but if you don't start today, you will never get 
there. And I really think that is a very important part of this 
story, that you know, I am not as worried about the machines 
that we use in Minnesota not counting correctly, as I am about 
large numbers of people in some precincts that maybe half a 
dozen people or a dozen that could change the outcome of a 
school board election, or a State legislative election, or even 
a Congressional election.
    And so, I do hope that as you go forward, you will at least 
keep open to that, and try to at least let folks know that this 
technology is out there. It is not all that expensive. I think 
the concern I have with, you know, with your immediately going 
to the philosophical question. You may well be right. But I 
think generally speaking, the public has always resisted new 
technologies. I mean, there were people who thought putting 
electrification inside of houses was ludicrous because people 
would die. And of course, they were right. I mean, people have 
died from being electrocuted. But, you know, we figured out 
that it is a risk we are willing to take, and we take it every 
day. And I think that is going to be true with this technology. 
I think at first, there will be resistance, but more and more 
people realize it is for their protection as well.
    I yield back the balance of my time. Thank you.

    Role and Ability of NIST to Address Voter Equipment Testing and 
                           Evaluation Issues

    Chairman Ehlers. The gentleman's time has expired. I will 
ask some additional questions. And let me just interject here, 
in the midst of all this gloom and doom about fraud, error, and 
so forth, that I am pleased that we live in a country that, by 
and large, values the integrity of their elections, and the 
majority of the people, in fact, are honest and want honest 
elections.
    So, it is not all bad news, but the point is, we want to 
protect it and make sure that people can be assured, first of 
all, that their vote counts, and secondly, that there are no 
fraudulent votes counted, and that all votes are counted 
accurately.
    This is a question for anyone on the panel. How important 
is NIST's role at this point in solving the problems we have 
discussed here today? What specific assistance do you need from 
NIST, or do you think NIST should provide, both what they 
already are doing, and what they might potentially do? And then 
I would like to ask NIST to respond whether or not they can 
meet these needs, and how much funding would be required.
    Mr. Wilkey, we will start with you.
    Mr. Wilkey. Thank you, Mr. Chairman.
    One of the issues that the Chairman of the EAC has come out 
with in the last couple of weeks--I mentioned them earlier--he 
has called on--and I know that he has personally called every 
one of the vendors, and asked them to voluntarily place their 
software and source code into the NIST software library--and 
this is something that we had been talking about in all of our 
discussions, going back a year ago, that one of the great 
benefits that NIST brings to this whole program is to be able 
to have a single repository for software source code, all of 
the versions, because there are so many versions out there. It 
is one of the most difficult things that we have to deal with, 
or that the ITAs have to deal with, is version control. And to 
bring them into this library, similar to the one that they host 
now for the law enforcement agencies all over the country, 
would be a great benefit to this program.
    Let me just interject also, and I may have mentioned this 
before, but I--we came away from our initial meetings with NIST 
so gratified that the little baby that we tried to raise is now 
kind of grown up, and we can turn it over to them, and feel 
confident that they are going to give it the day to day 
attention that it really needs.
    We were particularly gratified because NIST, and we didn't 
know this before we began meeting with them, is that NIST has 
the ability, being who they are, to bring the very best in 
technology to the table to look at these issues, and to study 
these issues, and to make the very best recommendations that 
they can. And so, we are very pleased from our end, and as non-
technical people. I am not a technician, never claimed to be. I 
am just a school teacher who ended up going into the Election 
Office 35 years ago, and here I am today.
    But I think all of us in NASED who have been working on 
this have particularly been very much pleased with what we have 
seen at NIST, and we know that they will do a great job in this 
area.
    Chairman Ehlers. Well, let me just thank you for that 
statement, because you have no idea how many objections I 
received from members of your organization when I first 
proposed NIST.
    Mr. Wilkey. Chairman, we were a little skeptical, but we 
were quick learners. Let us put it that way.
    Chairman Ehlers. More than a little skeptical. Ms. Coggins, 
do you have any comment on the question of how important NIST 
is, and what the appropriate role is?
    Ms. Coggins. I think I would just say that a reexamination 
of the voting system standards is appropriate, and we 
definitely support, you know, any help that can be provided by 
NIST. I think, you know, it is good to have an organization 
such as them helping with that process.
    Chairman Ehlers. Okay. Dr. Shamos, any comment?
    Dr. Shamos. Yes, Mr. Chairman.
    I think the nature of voting system standards, they differ 
from other kinds of standards. The Chair mentioned we have 
Underwriters Laboratories testing of various electrical 
devices, so we believe we are safe from shock. But if half the 
people who use toasters got electrocuted, we would look very 
carefully at what Underwriters Laboratories was doing.
    So most people in their daily life do not need to 
understand the testing procedures or even the standards that 
are being applied to toasters, because our experience is that 
they are safe. However, so much hue and cry has been raised 
about security problems and reliability problems with voting 
systems that I do not believe that the public will be satisfied 
with standards that the public cannot observe and understand.
    And therefore, I think that the proper role of NIST is to 
coordinate the development of standards with massive input from 
the public, and massive transparency and visibility, similar to 
the way Internet standards are developed, by having Requests 
for Comment, engineers all over the world look at the 
protocols, make comments, and what happens is that the cream 
rises. And if someone has an idea that is bad, there are 100 
people who explain why it is bad.
    Instead of looking to a super-organization who, 
essentially, takes on the mantle of we are the experts, trust 
us. The word trust is rapidly disappearing from the process of 
voting and counting votes. We can just never get the public to 
buy the concept that some distinguished gentleman ought to be 
trusted simply because they have been around a long time. And 
we need much more public involvement.

               What Does NIST Need to Fulfill This Role?

    Chairman Ehlers. Thank you. And to wrap this up, Dr. 
Semerjian, two questions. Can NIST meet these needs? How much 
funding will it require? And HAVA gave you nine months to 
develop a standard. Can you meet that deadline?
    Dr. Semerjian. First of all, we are very pleased to be 
involved in this. Our mode of operation has always been to be 
open and transparent in anything. We don't have many smoke-
filled backrooms where things get decided. Indeed, the 
standards setting process, everything that we do is open, 
through the normal procedure of publishing notices in the 
Federal Register, giving sufficient time to people to comment, 
or almost invariably, having workshops to not only welcome, but 
indeed solicit comments from the public, and the technical 
community.
    So, I certainly have no reservations in terms of meeting 
the kinds of requirements that Dr. Shamos has in mind. I mean, 
indeed, this is an area where public trust and confidence, just 
the perception, is a very important issue. The fact that 
scientists or engineers can sit and convince each other that 
this works or this is right is not sufficient. The process has 
to be open enough, transparent enough, so that everybody 
understands, as he pointed out.
    So, it is very important, and indeed, our process of doing 
any of these kind of activities, have been along these lines. 
And we don't normally just sit and decide on one particular 
standard. As you know, in the encryption standards, for 
example, we opened the field to the whole world, basically 
asked scientists, engineers, to come with proposals for the 
kinds of standards that we should have. So, I expect a similar 
process. I think our only problem will be we are running on 
such a short time scale that----
    Chairman Ehlers. And that was a question.
    Dr. Semerjian. Yeah.
    Chairman Ehlers. Can you meet the time?
    Dr. Semerjian. I think so. But it will--I mean, we already 
have the--as I pointed out, we have put--the Federal Register 
notice came out yesterday. We expect the workshop within a 
month or so, and we will certainly give our best try to meet 
the nine-month deadline to come up with a draft standard.
    Chairman Ehlers. And the funding?
    Dr. Semerjian. Well, I guess that is really hard to say, 
but we will--I know you are working very hard to come up with 
resources for NIST, and we will try to get that done within----
    Chairman Ehlers. Yeah. And as you know, I did try to take 
some of the funding that was for the new voting machines, and 
just divert a very small fraction of that to you, but received 
objections from NASED, for which I will never forgive them, and 
so that wasn't accomplished. But perhaps that can still be 
done.
    Thank you. My time has expired. We are rejoined by the 
Ranking Member, Mr. Udall, if you have further questions.
    Mr. Udall. Thank you, Mr. Chairman.
    I am glad to hear that NIST believes that you can get the 
job done. But I do think it is incumbent on us to provide you 
with the resources, and I hope you will continue to make that 
case, as will members of the panel, to the Congress. The 
squeaky wheel gets the oil is certainly a principle that works 
in the Congress.
    I, Mr. Chairman, want to just for the record note that I 
talked to our Secretary of State, who I think may be familiar 
to some of the panel, Donetta Davidson, last week, and asked 
her some questions about what was unfolding in Colorado, and 
she is, Mr. Chairman, for the record, she is a moderate, 
thoughtful Republican.
    Chairman Ehlers. All Republicans are moderate and 
thoughtful.
    Mr. Udall. Thoughtful at all times, I know. And a well-
respected public servant, and her point was get NIST the 
resources, and get NIST on the case, and we can move to where 
we need to be, that the 2006 deadline is bearing down upon us, 
and that was her focus, not the 2004 election. I do fear that 
we may have the potential in 2004 for a repeat of 2000 at the 
Presidential election level, but be that as it may, we 
certainly have that 2006 deadline to meet.
    Dr. Semerjian. Mr. Udall.
    Mr. Udall. Yes.
    Dr. Semerjian. I don't know if you are aware of it, but Ms. 
Davidson is on the TGDC.
    Mr. Udall. Yes.
    Dr. Semerjian. She is a member of the TGDC, and we are very 
pleased to have that expertise on the Committee.
    Mr. Udall. She brings, of course, a county perspective, 
because she served in that role as the county clerk in Arapahoe 
county, which is a very populated county south of Denver, and 
now, she is the Secretary of State. And as I mentioned, highly 
respected by Members of all parties in Colorado.

      What Do States and Other Entities Need to Do to Improve the 
                  Technological Aspects of Elections?

    I thought I might try and stir things up with my last 
question, because I think the answer to this will--I want to 
give everybody a chance, but I want to return to Dr. Shamos, 
and he raised a number of questions about the current standards 
and testing procedures, as well as some recommendations on how 
they could be improved, and I thought I would love to hear from 
each of the panel members, your views on Dr. Shamos' testimony 
in that regard. Let me start with Mr. Wilkey and move across.
    Mr. Wilkey. Thank you for your comments about the Secretary 
of State, who is a very good personal friend of mine, and I 
have spent so much time in your State lately over the last 
year, I nearly meet the qualifications to be able to vote for 
you. So, if I defect, or----
    Mr. Udall. Mr. Gutknecht may want to get your fingerprints 
before you----
    Mr. Wilkey. Okay.
    Mr. Udall [continuing]. You are allowed to vote.
    Mr. Wilkey. While I appreciate Dr. Shamos' statements, I 
want to reiterate, as I did in my testimony, that we certainly 
have done the very best job we could do on a voluntary basis, 
not having any staff, not having any funding, but trying to 
keep it going for the benefit of our member States and our 
jurisdictions. Certainly, there are some areas that need to be 
addressed, and we are hopeful that the Technical Guidelines 
Development Committee, which will be having its first meeting 
in the next couple of weeks, will be able to address those.
    Certainly, and I want to re-emphasize again the role the 
states and jurisdictions need to play in this process. You 
know, you can take a toaster, for example, as was already 
mentioned here, and you can put it in the lab, and you can test 
it, and you can, you know, similar to what we do with voting 
systems. You know, we put them in a chamber, and run them for 
163 hours, and shake them and bake them. And you know, can come 
out with a clean bill of health, but if you don't do what is 
necessary at the local level, you have lost all of that, 
essentially, because you are only testing one unit. And so it 
is absolutely necessary that--and something that we have talked 
about in NASED for a long time, that our states have to take 
the bull by the horn in doing that, similar to what they are 
doing in your State, Congressman, in your State, Mr. Chairman, 
in some of the states that have put funding to adequately do 
this job, places like my own State, where we have a dedicated 
staff that does that. The State of Florida, State of 
California, Georgia, and others, that have seen the need to 
have their own people on staff to be able to continue to make 
that whole process work.
    And so, I think that this is the most important thing that 
we need to understand in this whole process.
    Mr. Udall. Ms. Coggins.
    Ms. Coggins. Well, I think one of the points is that--and I 
don't take it that Dr. Shamos is saying that there is--the labs 
have an integrity problem at all. I am not interpreting it--it 
is a transparency problem, is part of his view. And we agree 
that there can be greater transparency in this process. You 
know, I think I keep going back to this 1990 implementation 
program.
    One of the original issues in that was that the reports 
were supposed to be provided--the FEC was going to have this 
clearinghouse where they could distribute the reports to the 
states, and somehow, that didn't happen, and you wound up 
making the person who distributes the report someone who has a 
nondisclosure agreement. And so, at this point, whether or not 
a state gets a report or not, it depends upon the vendor to 
request the lab to send it. You know, I would say in terms of 
that, if the State and the local person don't request the 
report, the report remains confidential because they allow it 
to remain confidential.
    But we agree that there can be greater transparency in the 
process. We have also tried to be, by coming here today, and 
other things that we do to support NASED, we have gone before 
the California taskforce. We went to the NIST conference. We 
try and get our processes out. Quite frankly, I start talking 
and eyes glaze over in one minute, when you start talking about 
test process. So, I know that there is an interest in greater 
participation, and we definitely feel that, you know, 
transparency, in terms of reports, in terms of the 
accreditation, we don't have an issue with that.
    Mr. Udall. Dr. Semerjian, I think maybe it is--I don't know 
if it is inappropriate for you to answer, but I know this is 
what--the area in which you are going to do some work. If you 
feel comfortable responding, I would welcome your input.
    Dr. Semerjian. No--I see no reason why reports should not 
be available, whether it is the accreditation report, or the 
test reports. The other comment, I thought Dr. Shamos was 
making, that you know, if people send you a chip, and you know, 
somebody can just plug it in, and that is perfectly okay, that 
is not an acceptable procedure under ISO 17025 standard. You 
can't just plug things in and take things out, make changes, 
without proper notification and proper documentation of those 
changes. So, I think just by implementing more rigorous test 
procedures and standards, I think we should be able to get over 
some of those difficulties.
    I think his concern is well-placed, in the sense that we 
need to be worrying about not just a box, a piece of apparatus 
here. We need to--or just the chip inside. We need to worry 
about the integrity of the whole system, the whole system being 
first, the machine itself, and second, not just the voting 
machine, but how does that data get transmitted to a central 
location where the vote is tallied, etc.
    So, clearly, our concerns have to be not just limited to 
one particular box, one particular element of the system, but 
the entirety of the system. I think clearly, we have to look at 
the totality of the systems that are being used.
    Mr. Udall. Spoken like the head of NIST. Thank you, and 
again, I want to thank the panel. I think we are going to 
conclude here. But what I heard, Dr. Shamos, you saying in the 
end, that this is more about human error than it is about 
fraud, although we always have to be worried about fraud. But 
that, in the end, that is more where you would place your 
concerns, given the multiplicity of systems around the country, 
and the difficulty in arranging some sort of a fraudulent 
conspiracy, if you will.
    Dr. Shamos. Well, we must be thoroughly vigilant to make 
sure that the systems are not vulnerable to fraud. We shouldn't 
engage in the fantasy that electronic frauds are going on all 
the time, or that that is the major problem that we face in 
elections. Most of the incidents that I have read about involve 
machines that simply won't boot up properly on election day. 
That has nothing to do with fraud. What it has to do with is 
either people not knowing how to turn them on, or machines that 
have not been adequately tested, stored, or set up properly. 
That is an education problem.
    But I am certainly not suggesting that security is not a 
vital concern.
    Mr. Udall. And thanks to the panel. This is very 
informative.
    Chairman Ehlers. The gentleman's time has expired. Mr. 
Wilkey, did you have something you wanted to say? It looked 
like you wanted to make a comment.
    Mr. Wilkey. And I would like to do just a quick followup on 
the question that Congressman Udall asked.
    You know, we have often been accused of--because this was a 
voluntary effort of having a rinky-dink process here, this is 
the handbook that NASED uses to qualify our ITAs. When we move 
this process over to NIST, they will use a process called ISO 
17025. It is a very familiar accreditation standards for 
independent test authorities. It is almost a carbon copy of the 
handbook that we have been using for a number of years, because 
it was developed when the first draft of 17025 was being 
drafted by the late Bob Naegele, who did all of this work, and 
who worked closely with NVLAP and NIST at that time.
    Further, we have had some of our own questions regarding 
these reports. We have consistently told our member States that 
have been involved in this program, and believe me, it took a 
long time to get 41 states to adopt the voluntary federal 
standards, a lot of talking, and a lot of arm-twisting. But we 
finally did it, and one of the things that we have consistently 
told these states is that they must get copies of these reports 
turned over to State ITAs, if they have a State ITA, or if they 
are a large jurisdiction buying a voting system, that it needs 
to be part of their contract with the vendor, that you don't 
sell a product here unless we see a copy of this report, or 
have it reviewed by somebody that is willing to do a 
confidentiality agreement.
    I agree that it has not been, it has been the most 
disconcerting of everything we have done, because of the fact 
that there has been so little funding available for us to be 
able to go out and do this on our own, it was necessary for the 
vendor to pay for this process, and it has been a very 
expensive process, at least if you listen to them screaming and 
hollering. And so, that product becomes their property, but 
that in no way means that a State or a jurisdiction cannot get 
their hands on this report if they go through the right process 
to do so, and we have encouraged them to do that.
    Chairman Ehlers. Thank you very much. Just a few other 
comments. First of all, I have, over the years as a county 
commissioner, State house member, State senator, and now here, 
worked with many county clerks, city clerks, township clerks, 
and poll workers, and I have to say that by and large, they are 
the salt of the Earth. They are very dedicated, they really 
want to do it right, and we have to recognize that. And so, our 
purpose here is not to condemn them, or to denigrate them, but 
simply say we want to try to help you to do it right.
    We also have to recognize the federal role in elections is 
Constitutionally limited. We, of course, can worry about 
federal elections, but there are a lot of other elections, 
city, township, State, and so forth, that we do not have 
jurisdiction over, unless there is evidence of fraud that our 
Justice Department would have to investigate.
    So, and it has been a very difficult road to get where we 
are. I am pleased with where we are, except we should have been 
here two years ago. But we will get this done, and we will have 
a safe and secure system to the extent possible.
    I, also, with Mr. Gutknecht's comment about fingerprints, I 
was reminded of an election story--this is true--some years 
ago, in an unnamed jurisdiction, where the county political 
boss was in the habit of registering his dog to vote as well as 
himself, and this became general knowledge, and the people just 
sort of lived with it. However, he overreached when he 
registered the dog in three different precincts, and the dog 
voted in all three precincts. That was the end of the political 
boss. So, fraud is not exactly new, and not even imaginative.
    But it is pleasure to thank you for your participation 
here. It has been a good hearing, and we are very pleased with 
the progress. As I say, it is later than we would like, but we 
are looking for good results, and we hope the next election, 
Presidential or otherwise, will be far better than it was four 
years ago.
    I thank the panelists for coming here. You have all 
contributed substantially to the hearing, and I appreciate it. 
If there is no objection, the record will remain open for 
additional statements by the Members, and for answers to any 
follow-up questions that the Subcommittee may ask of the 
panelists by writing, and we would appreciate it if you would 
respond to those if we send them to you.
    Without objection, so ordered, and the hearing is now 
adjourned.
    [Whereupon, at 4:01 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Carolyn E. Coggins, Director, ITA Services at SysTest Labs

Q1.  How do the standards and testing methodologies for voting 
equipment differ from standards and testing methods for other kinds of 
equipment that your company tests? Are tests for voting equipment 
generally more or less specific or comprehensive?

A1. An ITA performs two distinct types of testing on electronic Voting 
Systems. These are as follows:

        1.  Software and integrated system testing where the focus is 
        on testing to ensure the functionality, security, accuracy, 
        etc., of either software or firmware.

        2.  Hardware environmental testing where the focus is on 
        ensuring that custom developed hardware meets all applicable 
        environmental standards.

    Hardware Environmental Testing: The standards for this are fairly 
specific and straightforward, having been derived from the 
manufacturing industry for hardware components and hardware devices. 
The methods used for hardware environmental testing are very similar to 
methods used for testing other kinds of equipment. The requirements 
within the 2002 Federal Election Commission Voting System Standards, 
VSS, and methods for hardware environmental testing directly resemble 
the international standards and many of the standards within the VSS 
either call out or reference both national and international hardware 
environmental testing standards, e.g., FCC, OSHA, ISO and Mil 
standards.
    Software and Integrated System Testing: The methods for testing 
software and integrated systems can be as varied as there are different 
software applications and industries. In addition, although standards 
from the FEC (the 2002 VSS), IEEE, the SEI, FDA, DOD, ISO and others 
exist for software, there is no uniformly adopted testing approach for 
the software development world. SysTest Labs has a testing methodology 
that governs our testing processes and procedures. This methodology, 
Advanced Test Operations ManagementTM (ATOMTM) ensures that SysTest 
Labs follows the same basic techniques, regardless of the type of 
system. ATOMTM was audited by the NASED Auditors and approved for use 
in testing of electronic Voting Systems. Having ATOMTM in place at 
SysTest Labs ensures that we take a robust and repeatable approach to 
each and every test effort, from banking systems to electronic Voting 
Systems. The only difference between our testing of electronic Voting 
Systems and other systems is in the depth of testing.
    The depth of testing for other systems is defined by many factors. 
SysTest Labs has separated systems into three basic categories related 
to the criticality or the magnitude of impact/risk of the system. These 
are:

Low Criticality or Magnitude of Impact/Risk: General Commercial

        <bullet>  Testing is performed to customer requirements.

        <bullet>  Customer assesses the risk and determines if testing 
        is sufficient.

        <bullet>  Testing is often viewed as a cost center item as 
        opposed to a profit center item. Customers or Vendors may try 
        to minimize the time and money spent on testing.

        <bullet>  There are no uniformly adopted standards for these 
        types of systems and the methods for testing can vary from ad 
        hoc (no planning) to extremely systematic and robust.

        <bullet>  Acceptance criteria: Sufficient can be fluid, 
        responding to influences like the benefit of ``first to 
        market'' and budgets.

Medium Criticality or Magnitude of Impact/Risk (e.g., Electronic VOTING 
SYSTEMS, Gaming, Telecommunications, Banking, and others)

        <bullet>  Testing can be required to meet regulatory standards 
        with either government or fiduciary oversight.

        <bullet>  Testing is still viewed as a cost center item as 
        opposed to a profit center item. This translates to customers 
        or Vendors trying to minimize the time and money spent on 
        testing.

        <bullet>  Level of testing is determined by financial risk, 
        penalty, or governed by published guidelines and/or standards.

        <bullet>  Acceptance criteria: Customer may set the acceptance 
        criteria or the acceptance criteria may be defined by 
        regulatory standards. The customer may define which 
        requirements the system will meet, i.e., the regulations or 
        standards do not force the customer to meet all system 
        requirements but a minimum set of requirements.

High Criticality or Magnitude of Impact/Risk: (e.g., DOD, NASA, FDA):

        <bullet>  Life critical systems.

        <bullet>  The systems must meet very stringent standards and 
        requirements.

        <bullet>  The methods used for testing are required to meet 
        very stringent standards and requirements.

        <bullet>  Oversight and enforcement by DOD, NASA or the FDA.

        <bullet>  Comprehensive level of testing determined by class; 
        class defines severity of risk, i.e., life and/or injury.

        <bullet>  Acceptance Criteria: Meets all requirements and 
        standards, must be free of defects. Per the 2002 VSS and NASED 
        guidelines, an ITA is required to ensure that a voting system 
        being tested meets the ``minimum requirements of the voting 
        system standards.'' The VSS specifies what minimum set of 
        requirements a voting system must meet in order to be 
        recommended for qualification. The VSS does not specify an 
        exhaustive set of requirements for software and these 
        requirements tend to be at a very high level leaving 
        significant room for interpretation by both the Vendor and ITA. 
        It is not to say that all voting systems tendered for ITA 
        Qualification only meet the minimum requirements of the VSS. 
        However, it is important to recognize that the intent of the 
        standards is to define a minimum set of requirements that all 
        voting systems must meet in order to be recommended for 
        qualification at a federal level. The individual functionality 
        required by each state is not addressed in the standards other 
        than to task the ITA to test additional functionality to the 
        ``Vendor's requirements.'' This assumes the Vendor designed to 
        the correct requirement.

    ITA software and integrated system testing for voting equipment is 
very specific. All voting systems submitted for testing must pass a 
standard set of tests based upon the minimum requirements of the VSS, 
customized to the individual voting system design. However it is 
generally less comprehensive than testing for other systems. This is, 
in part, because the VSS requirements stipulate that the Vendor has an 
internal quality assurance and testing program. ITAs may accept Vendor 
testing if a review of their pre-submission testing is found to be 
comprehensive. Unlike other testing we perform, we cannot make 
recommendations regarding the design of a system. In testing a system 
we must remain impartial. We can make observations about a design or 
function that is less than optimal but if it meets the VSS, we cannot 
withhold a recommendation. Although testing has shown that many Vendors 
exceed the VSS, when an issue is encountered and there is a dispute 
between the Vendor and the ITA, the Vendor will assert that the ITA's 
charter is to hold them to ``the minimum requirements of the 
standards.''

Q2.  To your knowledge, do the tests used by SysTest to evaluate the 
performance of voting machines differ from the tests used by the other 
Independent Testing Authorities? Does NIST need to develop uniform 
testing procedures that would require every lab to use exactly the same 
test?

A2. SysTest Labs believes that the hardware environmental tests 
performed between Wyle Labs and SysTest Labs are virtually the same. 
Again, these types of tests have been required for hardware components 
and devices for some time and are standard throughout the industry.
    SysTest Labs does not have access to the tests used by Ciber as a 
Software ITA. Therefore, SysTest Labs cannot provide an objective 
determination of whether or not our tests differ. SysTest Labs can 
state that within the last three years, our methods and tests have been 
reviewed by NASED Auditors (at least four times) and that software 
testing for our first ITA test effort was closely monitored and 
observed by the Auditors during late 2001 and early 2002.
    Having NIST develop a uniform set of software testing procedures 
would be very difficult. Each electronic Voting System will have a 
different approach and solution to meeting the requirements of the VSS. 
For example, touch screen devices can take the form of small screens, 
full-face ballots, systems that produce paper ballots from the touch 
screen, etc. In addition, the solution for election management systems 
can take many different forms depending on the database, reporting 
mechanisms, etc. This is the challenge that Software Testing faces when 
designing tests to ensure that an electronic Voting System meets the 
requirements of the VSS. The overall objectives will generally be the 
same, but the specific steps required to test out functionality will 
vary greatly from system to system. In addition, since there are 
requirements within the VSS that are not mandatory, some systems will 
require tests that others may not (depending on whether or not the 
Vendor states that they support the optional requirements).
    An alternative would be for NIST to work with the ITAs and 
together, design and develop the following items:

        1.  Testable scenarios and objectives for ballots, contests, 
        voting, tabulating, etc., or identify specific types of tests, 
        configurations, ballots, contests, etc. but allow the ITA lab 
        to control their actual test procedures.

        2.  Provide State-by-State requirements for handling of voting 
        variations. (Help identify conflicting requirements.)

        3.  Define and standardize the format, data, and acceptance 
        criteria upon which the ITA must report.

Q3.  Besides the recommendations you provided in your testimony on what 
specific kinds of computing problems need to be addressed by NIST 
during standards development, are there other activities that NIST 
could carry out to help the ITAs improve the testing process?

A3. SysTest Labs suggests the following items that NIST could carry out 
to help the ITAs improve the ITA Qualification Testing process:

        1.  Issue technical bulletins and clarifications as needed for 
        ITA Qualification Testing.

        2.  Develop a process for reporting disagreements between the 
        ITA and the Vendors regarding interpretation of the VSS 
        requirements or when an ITA requires a ruling on an issue with 
        a Vendor's system.

        3.  Standardize the reporting elements. Provide a Qualification 
        Report format and structure that allows ``apples to apples'' 
        comparisons of reports.

        4.  Provide state-by-state requirements for handling of voting 
        variations. (Help identify conflicting requirements.) This is 
        not only beneficial to the ITA but providing this information 
        to Vendors will help ensure that they build better voting 
        systems.

        5.  Recognize and understand that testing of an electronic 
        Voting System is not just the responsibility of the ITA

                  Define what should be considered public information 
                and what should remain proprietary.

                  Provide a basic set of guidelines for testing at 
                state certification and local acceptance testing 
                levels.

                  Provide guidelines and methods to local 
                jurisdictions on the use of on-going Vendor services 
                for programming and acknowledge that local 
                jurisdictions have responsibilities for performing 
                independent testing or oversight of Vendor ballot 
                programming.

                  A representative from NIST must be required to read 
                and evaluate qualification and certification reports. 
                Include report criteria in the standards so that there 
                is a common output with a focus on providing 
                information that can be used and understood by state 
                and local election officials.

                  Help the EAC to develop a common definition for all 
                functional elements of a voting system including 
                software, hardware, and documents.

                  Help the EAC to define a clear process and timeline 
                for submitted Qualification Report review and 
                acceptance/rejection by the EAC and NIST. (Method of 
                submission, timeframe to review, method of acceptance/
                rejection, veto, appeals, etc.)

                  Help the EAC to develop a document and library 
                structure as the clearinghouse for Qualified Voting 
                System software and hardware systems.

                  Help the EAC to define the clearinghouse role and 
                identify responsibilities: report retention, source 
                code and executable retention, voting system 
                documentation retention, policy for access to reports, 
                policy for obtaining/tracking results of state 
                certification, and national database to track voting 
                system problem reports.
                   Answers to Post-Hearing Questions
Responses by Hratch G. Semerjian, Acting Director, National Institute 
        of Standards and Technology (NIST)

Q1.  To your knowledge, do the test protocols used by testing 
laboratories to evaluate similar or identical pieces of equipment (not 
necessarily voting equipment) vary widely among different testing labs, 
or do they use identical tests? If there is a significant variation, 
does NIST need to develop uniform testing procedures for voting 
equipment as part of its responsibilities under the Help America Vote 
Act.

A1. NIST has no information about the test protocols used in the past 
by the NASED testing laboratories (ITAs). However, a well-written test 
protocol is always preferable to a less well-written test protocol. 
NIST could contribute considerably to the development of test protocols 
that are within NIST's scope of expertise. The improved test protocols 
would most likely result in better agreement among EAC accredited 
laboratories.
    In general, when detailed test protocols are used, e.g., the IEC 
61000 series (see http://www.iec.ch/about/mission-e.htm), different 
laboratories would be expected to report equivalent test results and 
when test protocols are not detailed, it is not possible to determine, 
in advance, if equivalent test results will be reported. When a test 
method involves sampling, the results will depend on the sample.
    Voting equipment and systems are usually tested four times: during 
product development, qualification testing, certification testing, and 
acceptance testing. At each stage, there is the possibility of 
different test methods being used. In some cases, a different test 
method must be used, e.g., determination of inter-operability of system 
components versus conformance of a component to a specification or 
determination that the system incorporates the laws of a particular 
locality.

Q2.  Mr. Shamos says in his testimony that the performance of a 
particular machine against national standards is considered 
proprietary. Should that information be revealed to the public?

A2. Within recognized national and international accreditation 
programs, accredited laboratories are not permitted to reveal 
proprietary or confidential information belonging to their clients. A 
vendor may share a test report that it owns with anyone that it wishes. 
A laboratory may provide information only if specifically requested to, 
in writing, by the owner of the information.
    Intellectual property rights must be respected. A requirement to 
reveal information may violate those rights. Unless the specifications, 
standards, test methods, test results, interpretations, and 
requirements are all provided, a statement of ``performance'' would be 
meaningless and potentially damaging to some or all of the parties 
involved in the contract.
    As the rule-making body under HAVA, the EAC could choose to require 
the public disclosure of certain information about voting systems as 
part of an accreditation process. States and localities could do the 
same. There would have to be publicly available requirements and 
conditions defining the requirement. The EAC, the States, or localities 
could require disclosure of information in the contract between vendor 
and purchaser. That information could, by contract, be declared 
publicly available or proprietary, again by the EAC and not NIST.

Q3.  What laboratories have indicated their interest to NIST in 
becoming testing laboratories under HAVA and how long do you anticipate 
the accreditation of these labs to take?

A3. As a matter of procedure, the National Voluntary Laboratory 
Accreditation Program, NVLAP, does not reveal the names of laboratories 
that express an interest in NVLAP programs or accreditation (http://
ts.nist.gov/ts/htdocs/210/214/214.htm).
    In August, NIST/NVLAP held an initial workshop to gauge interest 
within the laboratory community (see: http://ts.nist.gov/is/htdocs/210/
214/whatsnew.htm). An archived webcast of the workshop is available for 
viewing at: http://www.eastbaymedia.com/NVLAPworkshop.
    Approximately 10 laboratories attended the initial workshop. They 
were not all voting systems laboratories. They may or may not be 
interested in becoming accredited. A formal call for interested 
laboratories will be made shortly. Another workshop will likely follow 
in the December time frame.
    The length of time it takes to accredit laboratories depends on the 
laboratories and how ready they are to meet ISO 17025 standards for 
laboratory accreditation. The laboratories must meet the requirements 
of NIST Handbook 150 (http://ts.nist.gov/ts/htdocs/210/214/docs/final-
hb150-2001.pdf) and any program specific requirements (yet to be 
developed). Given the complexity of this program, it could well take 
one year for the laboratories to meet the requirements, be assessed, 
resolve findings, and receive accreditation. In addition to the writing 
of program specific requirements, it is necessary to identify and train 
appropriate assessors. Assessor teams of one or more experts will be 
assigned for each laboratory. The size and make-up of the assessor team 
will depend on the scope of accreditation of the laboratory. Because of 
the uncertainty involved in the accreditation process, the EAC could 
decide to ``grandfather'' the current ITAs (laboratories), for a period 
of time to maintain continuity.

</pre></body></html>
